 SIGAR                                      Special Inspector General for
                                             Afghanistan Reconstruction




                                                      SIGAR Financial Audit 13-11




                 Department of State’s Afghanistan Media Project:
                 Audit of Incurred Costs by HUDA Development
                 Organization Afghanistan




                                                                 JULY
                                                                    2013

SIGAR Financial Audit 13-11
July 26, 2013
The Honorable John F. Kerry
Secretary of State

The Honorable James B. Cunningham
U.S. Ambassador to Afghanistan


This letter transmits the results of our audit of costs incurred by HUDA Development Organization Afghanistan
(HUDA) for Department of State (State) grants 1 in support of the Afghanistan Media Project to build five Afghan
university media centers. The audit covered the period July 15, 2010, through December 31, 2012, and was
performed by Mayer Hoffman McCann P.C. It covered $7,402,631 in expenditures.
The specific objectives of the Afghanistan Media Project included providing universities with modern facilities
and equipment, enhancing the students’ ability to develop and broadcast information products, and enhancing
faculty and students’ ability to use modern media technologies. The grants to HUDA supporting the project had
the intended goals of promoting journalism and building the capacity of both faculty and students by
constructing media centers in five universities in Afghanistan.
The specific objectives of this financial audit were to
    •    render an opinion on the fair presentation of HUDA’s Fund Accountability Statement; 2
    •    determine and report on whether HUDA has taken corrective action on recommendations from prior
         audits or assessments;
    •    identify and report on significant deficiencies, including any material weaknesses, in HUDA’s internal
         control over financial reporting; and
    •    identify and report on instances of material noncompliance with terms of the award and applicable
         laws and regulations.
In contracting with an independent audit firm and drawing from the results of its audit, SIGAR is required by
auditing standards to provide oversight of the audit work performed. Accordingly, SIGAR reviewed Mayer
Hoffman McCann’s audit results and found them in accordance with generally accepted government auditing
standards.
Mayer Hoffman McCann issued a qualified opinion on the fairness of the presentation of the Fund
Accountability Statement based upon the identification of $2,405,102 of questioned costs, which represents a
material misstatement of the statement. Mayer Hoffman McCann also identified six findings from prior audits
or assessments where adequate corrective action had not been taken. In addition, Mayer Hoffman McCann
reported 15 internal control deficiencies, and 6 instances of noncompliance, which prompted the auditors to




1 State grants S-AF200-10-GR-146 ($2,674,721), S-AF200-10-GR-147 ($2,634,494) and S-AF200-10-GR-245

($8,374,239) funded the construction of media centers at Afghan universities.
2 The Fund Accountability Statement is a special purpose financial statement that includes all revenues received, costs

incurred, and any remaining balance for a given award during a given period.
question a total of $2,405,102 in costs. The $2,405,102 in questioned costs included $173,469 in ineligible
costs 3 and $2,231,633 in unsupported costs. 4 See table 1 below.


Table 1 - Summary of Questioned Costs
                                                Questioned Costs
                  Category                                                      Ineligible               Unsupported
                                                      Total

 Personnel                                                 $373,938                     $56,483                   $317,455

 Travel                                                         $5,747                                               $5,747

 Equipment                                                 $726,494                     $77,685                   $648,809

 Construction work and Supplies                           $1,222,105                    $35,309                 $1,186,796

 Indirect Costs                                                $76,818                    $3,992                   $72,826

 Totals                                                   $2,405,102                   $173,469                 $2,231,633

Given the results of the audit, SIGAR recommends that the Grants Officer:
    1. Determine the allowability of and recover, as appropriate, $2,405,102 in questioned costs ($173,469
       ineligible and $2,231,633 unsupported) identified in the report.

    2. Advise HUDA to address the 15 internal control findings identified in the report.
    3. Advise HUDA to address the six compliance findings identified in the report.
We will be following up with your agency to obtain information on the corrective actions taken in response to
our recommendations.




John F. Sopko
Special Inspector General
 for Afghanistan Reconstruction




(F011)



3 Ineligible costs are costs that the auditor has determined to be unallowable. These costs are recommended for exclusion

from the Fund Accountability Statement and review by State to make a final determination regarding allowability.
4 Unsupported costs are those costs for which adequate or sufficient documentation necessary for the auditor to determine

the propriety of costs was not made available.




                                                           2
            HUDA DEVELOPMENT ORGANIZATION

               Financial Audit of Costs Incurred under
Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                     AND S-AF200-10-GR-245

        For the Period July 15, 2010 to December 31, 2012
                         HUDA DEVELOPMENT ORGANIZATION

                           Financial Audit of Costs Incurred under
            Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                 and S-AF200-10-GR-245

                      For the Period July 15, 2010 to December 31, 2012


                                      Table of Contents


                                                                             Page
Summary:
 Background                                                                    1
 Objectives, Scope and Methodology                                             2
 Summary of Results                                                            4
 Summary of HUDA’s Responses to Findings                                      12
 Review of Prior Findings and Recommendations                                 14

Independent Auditor’s Report on Fund Accountability Statement                 18

Fund Accountability Statement                                                 21

Notes to Fund Accountability Statement                                        22

Independent Auditor’s Report on Internal Control                              30

Independent Auditor’s Report on Compliance                                    33

Findings and Responses                                                        35

Appendix A: HUDA Response to Findings                                         63

Appendix B: Auditor’s Rebuttal to HUDA Response to Findings                   76

Appendix C: Individual Grant Fund Accountability Statements
 S-AF200-10-GR-146                                                            79
 S-AF200-10-GR-147                                                            80
 S-AF200-10-GR-245                                                            81
                              HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


SUMMARY

Background

The Special Inspector General for Afghanistan Reconstruction (SIGAR) contracted with Mayer Hoffman
McCann P.C. (MHM) to perform a Financial Audit of Costs Incurred of Federal Assistance Awards S-
AF200-10-GR-146, S-AF200-10-GR-147 and S-AF200-10-GR-245, (Awards) awarded by the United
States Department of State (State Department) to HUDA Development Organization for the period July
15, 2010 through December 31, 2012.

HUDA Development Organization Afghanistan (HUDA) is a non-governmental, non-political and
nonprofit organization established on October 15, 2009. HUDA aims to help developmental
organizations create genuine and consistent developmental practices in the field and, through that, the
kinds of organizations and leadership that make these practices a sustainable reality.

The purpose of these Awards was to support the Afghanistan Media Project (Project). The outcome of
the Awards was to build media centers in five universities throughout Afghanistan with the following
objectives:

   •     Provide the universities with modern training facilities and equipment to develop and distribute
         print, radio and television materials;

   •     Enhance students' abilities to broadcast self-generated and community information products;
         and

   •     Enhance faculty and students' capabilities in the use of modern media production technologies.

By jointly developing the skills of faculty and students in these three mediums, the Project was to
promote journalism and further build the capacity of the next generation of Afghan journalists. It was to
provide the journalism departments of the universities with the ability to do print, radio and television
production in both Dari and Pashto, and allow future journalists to conduct radio and television talk
shows with local leaders on key issues. However, program performance was not part of the scope of
this audit.

The initial Awards and subsequent amendments were as follows:

                                                      Number of
           Award Number            Initial Award     Amendments        Total Award
       S-AF200-10-GR-146           $ 1,703,750            4            $ 2,674,721
       S-AF200-10-GR-147              1,572,580           4              2,634,494
       S-AF200-10-GR-245              8,374,239           2              8,374,239

        Total awards                $11,650,569                        $13,683,454


                                                    1
                             HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


SUMMARY

Objectives, Scope and Methodology

Objectives

The objectives of the audit include the following:

   •    The Fund Accountability Statement (FAS) – Express an opinion on whether the FAS presents
        fairly, in all material respects, revenues received, costs incurred, items directly procured by the
        U.S. Government and fund balance for the period audited in conformity with the terms of the
        Assistance Awards and generally accepted accounting principles or other comprehensive basis
        of accounting.

   •    Internal Controls – Evaluate and obtain a sufficient understanding of HUDA’s internal controls
        related to the Assistance Awards; assess control risk; and identify and report on significant
        deficiencies including material internal control weaknesses.

   •    Compliance – Perform tests to determine whether HUDA complied, in all material respects, with
        the Assistance Awards’ requirements and applicable laws and regulations; and identify and
        report on instances of material noncompliance with terms of the award and applicable laws and
        regulations, including potential fraud or abuse that may have occurred.

   •    Corrective Action on Prior Audit Recommendations – Determine and report on whether HUDA
        has taken adequate corrective action on prior external audit report recommendations or other
        external assessment recommendations.

Scope

The scope of this audit included all costs, including indirect costs, incurred during the period July 15,
2010 through December 31, 2012 under Awards S-AF200-10-GR-146, S-AF200-10-GR-147 and S-
AF200-10-GR-245 from the State Department.


Methodology

In order to accomplish the objectives of this audit, we designed our audit procedures to include the
following:




                                                     2
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


SUMMARY

Entrance Conference

An entrance conference was held via conference call on December 18, 2012 with representatives of
HUDA, SIGAR and the State Department in attendance.

Planning

During our planning phase, we performed the following:

   •   Obtained an understanding of HUDA;
   •   Reviewed Awards to HUDA;
   •   Reviewed regulations specific to the State Department and the Awards;
   •   Performed a financial reconciliation; and
   •   Selected samples based on our approved sampling techniques.

Internal Control Related to the FAS

We reviewed HUDA’s internal controls related to the FAS. This review was accomplished through
interviews with management and key personnel, review of policies and procedures, identifying key
controls within significant transaction cycles, and testing those key controls.

Compliance with the Assistance Awards’ Requirements and Applicable Laws and Regulations

We reviewed the Awards and amendments and documented all compliance requirements that could
have a direct and material effect on the FAS. We assessed inherent and control risk as to whether
material noncompliance could occur. Based upon our risk assessment, we designed procedures to test
a sample of transactions to ensure compliance.

Corrective Action on Prior Audit Recommendations

We requested all prior audit reports and recommendations provided in order determine the impact on
our audit, as well as to evaluate the adequacy of the corrective actions implemented. See the Review
of Prior Findings and Recommendations subsection of this Summary for a status of applicable prior
findings.

Sampling

Our sampling techniques included using the detailed accounting records, and based upon the risk
assessed, we performed data mining to assess individual expenditure accounts and transactions that
are considered to be high or medium risk for inclusion in our test of transactions. If the population of a
given cost category tended to be large in the number of transactions and more homogeneous in nature,


                                                    3
                            HUDA DEVELOPMENT ORGANIZATION

                                 Financial Audit of Costs Incurred under
                  Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                       and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


SUMMARY

we considered selecting a statistical sample of the costs. If a statistical sample was selected, the
sample size was based upon a 95% confidence level with 5% maximum tolerable error rate. All other
cost categories and/or accounts for which it was not be appropriate to select a statistical sample were
selected on a judgmental basis.

Fund Accountability Statement

In reviewing the FAS, we performed the following:

   •   Reconciled the costs on the FAS to the Awards and general ledger;
   •   Traced receipt of funds to the accounting records; and
   •   Sampled and tested the costs incurred to ensure the costs were allowable, allocable to the
       Awards and reasonable.

Exit Conference

An exit conference was held on April 3, 2013. Attendees included HUDA, SIGAR and the State
Department. During the exit conference, we discussed the preliminary results of the audit and
established a timeline for providing any final documentation for consideration and reporting.


Summary of Results

Our audit of the costs incurred by HUDA under the Awards from the State Department identified the
following matters:


Auditor’s Opinion on FAS

We issued a qualified opinion on the fairness of the presentation of the FAS. This opinion was based
upon the identification of certain ineligible or questioned costs, which represents a material
misstatement of the FAS. The ultimate determination of whether the identified questioned costs are to
be accepted or disallowed rests with the State Department.


Questioned Costs

There are two categories of questioned costs, ineligible and unsupported. Ineligible costs are those
costs that are deemed to not be allowable in accordance with the terms of the Awards or applicable
laws and regulations, including Office of Management and Budget (OMB) Circular A-122. Unsupported




                                                    4
                              HUDA DEVELOPMENT ORGANIZATION

                                  Financial Audit of Costs Incurred under
                   Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                        and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


SUMMARY

costs are those costs for which no or inadequate supporting documentation was provided for our
review. A summary of questioned costs is as follows:

Ineligible Costs

The following represents the ineligible costs identified during the audit:

          Finding                                                                 Ineligible
          Number                              Description                           Costs
           2013-8      Costs incurred prior to period of performance              $ 1,500
          2013-15      Costs exceed the budget                                     171,969

           Total                                                                  $173,469

Unsupported Costs

The following represents the unsupported costs identified during the audit:

          Finding                                                                 Unsupported
          Number                              Description                            Costs
          2013-1       Projects not competitively bid                             $1,214,380
          2013-2       Costs not supported or amount per the invoice was less         77,782
                         than the cost claimed
          2013-3       Cash payments made to other than the intended                  83,050
                       recipient, extra work not competitively bid, and the
                       vendor check was endorsed by the HUDA Project
                       Manager
          2013-4       Expenses claimed not recorded in accounting records            61,847
          2013-5       Lack of sufficient documentation to support expense           415,909
          2013-6       Salaries of core national staff paid in cash and              136,665
                         timesheets not approved by supervisor
          2013-7       Contract with quality assurance/quality control firm was      239,000
                         not competitively bid, costs were greater than costs
                         on similar projects, payment patterns were irregular
                         and payments were made in advance of when
                         services were received
          2013-8       Lack or prior approval from the State Department                3,000

           Total                                                                  $2,231,633




                                                     5
                             HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


SUMMARY

Total questioned costs as a result of our audit are as follows:

       Ineligible costs                         $ 173,469
       Unsupported costs                         2,231,633

         Total questioned costs                 $2,405,102


Internal Control Findings

Internal control findings are classified into three categories, deficiency, significant deficiency, and
material weakness. A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing their assigned functions,
to prevent, or detect and correct, misstatements on a timely basis. A significant deficiency is a
deficiency, or a combination of deficiencies, in internal control that is less severe than a material
weakness, yet important enough to merit attention by those charged with governance. A material
weakness is a deficiency, or a combination of deficiencies, in internal control, such that there is a
reasonable possibility that a material misstatement of the FAS will not be prevented, or detected and
corrected on a timely basis. A summary of the internal control findings noted as a result of the audit are
as follows:

Material Weakness

The following material weaknesses were reported:

       Finding                                                                      Auditee’s
       Number               Internal Control Finding – Material Weakness           Concurrence
       2013-1       HUDA did not consistently bid projects on a competitive         Disagree
                    basis and failed to retain various documentation associated
                    with the procurement. This resulted in total questioned
                    costs of $1,214,380.

       2013-3       During our testing of payments to vendors for construction       Disagree
                    work and supplies, we noted the following questionable
                    payments:

                    •   Payment in the amount of $3,850 was made to a quality
                        assurance/quality control firm for consultation services
                        under Award S-AF200-10-GR-146. The check was
                        subsequently canceled and the payment purported to
                        be made in cash. However, the signature of the


                                                     6
                              HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


SUMMARY

       Finding                                                                      Auditee’s
       Number                Internal Control Finding – Material Weakness          Concurrence
                         acknowledgement of receipt was different from the
                         owner’s signature in other related documentation we
                         reviewed. It appears that the payment was made to
                         another individual.

                   •     Payment in the amount of $79,200 was approved by the
                         HUDA Project Manager to a vendor for the provision of
                         labor for extra construction work under Award S-AF200-
                         10-GR-146. A competitive bidding process was not
                         used. Additionally, the check to the vendor was signed,
                         approved and cashed by the HUDA Project Manager
                         instead of the vendor, and the HUDA Project Manager
                         allegedly paid the vendor in cash. Although an
                         acknowledgement of receipt of the cash was signed, we
                         are unable to determine whether the individual that
                         signed the form is the actual vendor as no other
                         documentation bearing the vendor’s signature was
                         available for review.

                    Total questioned costs are $83,050.

       2013-13      HUDA made payments in cash totaling $626,922 for all            Disagree
                    three Awards.


Significant Deficiency

The following significant deficiencies were reported:

       Finding                                                                      Auditee’s
       Number             Internal Control Finding – Significant Deficiency        Concurrence
       2013-2       Costs claimed under equipment, construction work and             Agree
                    supplies, and indirect costs in the total amount of $77,782
                    were either not supported or the amount per the invoice
                    was less than the cost claimed.

       2013-4       Two expenses under Award S-AF200-10-GR-245 in the               Disagree
                    amounts of $56,100 and $5,747 charged to construction
                    work and supplies and travel, respectively, were not


                                                    7
                        HUDA DEVELOPMENT ORGANIZATION

                            Financial Audit of Costs Incurred under
             Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                  and S-AF200-10-GR-245

                     For the Period July 15, 2010 to December 31, 2012


SUMMARY

   Finding                                                                      Auditee’s
   Number            Internal Control Finding – Significant Deficiency         Concurrence
               recorded in HUDA’s accounting records. Total questioned
               costs are $61,847.

    2013-5     For construction work and supplies and indirect costs            Disagree
               tested, HUDA was unable to provide sufficient supporting
               documentation, i.e. invoices/bills, agreements,
               acknowledgement of receipt of payment, and evidence of
               services received for 18 sampled transactions tested. This
               resulted in questioned costs of $415,909.

    2013-6     Salaries of all core national staff had been paid in cash        Disagree
               throughout the audit period. Additionally, the monthly
               timesheets of all of the sampled employees supporting the
               payroll sheets were not approved by the immediate
               supervisor. These conditions occurred in all 10 of the
               months we tested. Therefore, we questioned all personnel
               costs and associated indirect costs incurred by core
               national staff for the entire 28-month in the amount of
               $136,665.

    2013-7     HUDA charged $239,000 for costs paid to a quality                Disagree
               assurance/quality control firm that are questionable due to
               the following:
               • No documentation was provided to support whether this
                   contract was competitively bid;
               • Costs was comparatively higher than other similar
                   services performed on similar projects;
               • Payment patterns appeared irregular; and
               • Payments were made in advance instead of after
                   services were rendered.

    2013-8     Audit costs in the amount of $1,500 for a period prior to the    Disagree
               period of performance were charged to Award S-AF200-10-
               GR-146. These costs were considered ineligible.
               Additionally, audit costs in the amount of $3,000 charged to
               Award S-AF200-10-146 did not have prior approval from
               the State Department. These costs were considered
               unsupported.



                                               8
                        HUDA DEVELOPMENT ORGANIZATION

                            Financial Audit of Costs Incurred under
             Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                  and S-AF200-10-GR-245

                     For the Period July 15, 2010 to December 31, 2012


SUMMARY

   Finding                                                                       Auditee’s
   Number            Internal Control Finding – Significant Deficiency          Concurrence
   2013-9      During testing of HUDA’s internal controls surrounding its        Disagree
               cash disbursement cycle, we noted the following:
               • Vouchers are not numbered or indexed;
               • Hard copies of supporting payment vouchers were
                  prepared after the expense entries were posted in the
                  general ledger;
               • Inconsistency in the posting of payment vouchers as
                  multiple payments for different invoices were lumped
                  into one single general ledger posting entry and also
                  multiple general ledger posting entries were lumped
                  into one payment voucher;
               • Vouchers were not approved and/or authorized by the
                  designated authorized personnel until after the
                  payments were made; and
               • An audit trail was not documented as to the allocation
                  of costs between the different awards.

   2013-10     During our testing of Award S-AF200-10-GR-245, we noted           Disagree
               that a subcontract was awarded by HUDA to a vendor for
               the construction and procurement of media equipment for
               four universities (Kandahar University, Nangarhar
               University, Balkh University and Khost University) for
               printing, radio and TV studios with a total contract value of
               $3,224,045. Subsequent to award, the scope of the project
               was reduced by removing Khost University. Due to delays
               in obtaining a signed Memorandum of Understanding
               (MOU) and revision to the work plan (removing Khost
               University), the construction work could not be started as
               scheduled and the project was terminated. Advance
               payments in the amount of $111,910 were made for the
               descoped project. Additionally, $162,345 of costs incurred
               related to technical designing, soil testing and mobilization
               for Khost University were incurred prior to the signing of the
               MOU. These amounts were previously questioned as part
               of Finding 2013-1.

   2013-11     Personnel files of employees were missing documentation           Disagree
               related to recruitment, evaluation of performance and
               tracking of employee leave.


                                               9
                            HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                         For the Period July 15, 2010 to December 31, 2012


SUMMARY

      Finding                                                                       Auditee’s
      Number             Internal Control Finding – Significant Deficiency         Concurrence
      2013-12      HUDA has a policy to deduct 10% of the salary of a newly-         Agree
                   hired employee during their probationary period. During
                   our testing of employment practices, we noted that no
                   salary had been withheld during the probationary period for
                   newly-hired employees.

      2013-14      During our review of internal controls, we noted that the        Disagree
                   same individual was responsible for making cash payments
                   was recording the transactions in the accounting system.
                   In addition, Project Manager had the responsibility of hiring
                   subcontractors, monitoring their work, submitting progress
                   and financial reports and approving all the payments.

      2013-15      The reported costs for Awards S-AF200-10-GR-146 and S-            Agree
                   AF200-10-GR-147 exceeded the budget by $55,629 and
                   $116,340, respectively. No transfer was made or funds
                   requested from other cost categories to offset the cost
                   overruns. Total ineligible costs were $171,969.


The complete management response from HUDA to each of the internal control findings can be found
in the Findings and Responses section of this report.


Deficiencies

No deficiencies were reported.


Compliance Findings

As part of obtaining reasonable assurance about whether the FAS is free from material misstatement,
we performed tests of its compliance with certain provisions of the Awards and other laws and
regulations, noncompliance with which could have a direct and material effect on the determination of
FAS. The results of our tests disclosed the following compliance findings.




                                                  10
                        HUDA DEVELOPMENT ORGANIZATION

                            Financial Audit of Costs Incurred under
             Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                  and S-AF200-10-GR-245

                     For the Period July 15, 2010 to December 31, 2012


SUMMARY

   Finding                                                                      Auditee’s
   Number                           Compliance Finding                         Concurrence
   2013-1      HUDA did not consistently bid projects on a competitive          Disagree
               basis and failed to retain various documentation associated
               with the procurement. This resulted in total questioned
               costs of $1,214,380.

    2013-6     Salaries of all core national staff had been paid in cash        Disagree
               throughout the audit period. Additionally, the monthly
               timesheets of all of the sampled employees supporting the
               payroll sheets were not approved by the immediate
               supervisor. These conditions occurred in all 10 of the
               months we tested. Therefore, we questioned all personnel
               costs and associated indirect costs incurred by core
               national staff for the entire 28-month in the amount of
               $136,665.

    2013-7     HUDA charged $239,000 for costs paid to a quality                Disagree
               assurance/quality control firm that are questionable due to
               the following:
               • No documentation was provided to support whether this
                   contract was competitively bid;
               • Costs was comparatively higher than other similar
                   services performed on similar projects;
               • Payment patterns appeared irregular; and
               • Payments were made in advance instead of after
                   services were rendered.

    2013-8     Audit costs in the amount of $1,500 for a period prior to the    Disagree
               period of performance were charged to Award S-AF200-10-
               GR-146. These costs were considered ineligible.
               Additionally, audit costs in the amount of $3,000 charged to
               Award S-AF200-10-146 did not have prior approval from
               the State Department. These costs were considered
               unsupported.

   2013-10     During our testing of Award S-AF200-10-GR-245, we noted          Disagree
               that a subcontract was awarded by HUDA to a vendor for
               the construction and procurement of media equipment for
               four universities (Kandahar University, Nangarhar
               University, Balkh University and Khost University) for


                                              11
                            HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                         For the Period July 15, 2010 to December 31, 2012


SUMMARY

       Finding                                                                      Auditee’s
       Number                           Compliance Finding                         Concurrence
                   printing, radio and TV studios with a total contract value of
                   $3,224,045. Subsequent to award, the scope of the project
                   was reduced by removing Khost University. Due to delays
                   in obtaining a signed MOU and revision to the work plan
                   (removing Khost University), the construction work could
                   not be started as scheduled and the project was
                   terminated. Advance payments in the amount of $111,910
                   were made for the descoped project. Additionally,
                   $162,345 of costs incurred related to technical designing,
                   soil testing and mobilization for Khost University were
                   incurred prior to the signing of the MOU. These amounts
                   were previously questioned as part of Finding 2013-1.

       2013-15     The reported costs for Awards S-AF200-10-GR-146 and S-            Agree
                   AF200-10-GR-147 exceeded the budget by $55,629 and
                   $116,340, respectively. No transfer was made or funds
                   requested from other cost categories to offset the cost
                   overruns. Total ineligible costs were $171,969.



Summary of HUDA’s Responses to Findings

The following represents a summary of the responses provided by HUDA to the findings identified in
this report. The verbatim management responses received can be found in Appendix A to this report.

   •   Finding 2013-1: HUDA disagrees with the finding and recommendation. It indicated that the
       standard competitive process was followed based upon solicitations from identified and pre-
       qualified vendors both through submitted bids or quotations. Copies of the competitive process
       documentation were provided.

   •   Finding 2013-2: HUDA agrees that the invoices and supporting documentation were not
       provided during the course of the audit. It has subsequently located the documentation and
       prepared the reconciliation.

   •   Finding 2013-3: HUDA disagrees with the finding and recommendation.             It indicates that
       payments were only made to authorized vendors.




                                                  12
                          HUDA DEVELOPMENT ORGANIZATION

                             Financial Audit of Costs Incurred under
              Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                   and S-AF200-10-GR-245

                        For the Period July 15, 2010 to December 31, 2012


SUMMARY

  •   Finding 2013-4: HUDA disagrees with the finding and recommendation. It indicated that in
      some instances, the sampled expenses were partial payments, and that final payments were
      made and recorded. HUDA also states that the costs were allowable and in accordance with
      the approved U.S. Embassy budget categories.

  •   Finding 2013-5: HUDA disagrees with the finding and recommendation. It indicated that all
      cost questioned were approved by the U.S. Embassy Grant Officer and were, therefore,
      deemed to be reasonable.

  •   Finding 2013-6: HUDA disagrees with the finding and recommendation. It indicated that the
      Human Resources Officer prepares monthly salary sheets based upon employee daily
      attendance sheets. All monthly salary sheets for each employee are verified and attested to by
      the Grant and Finance Manager, and subsequently approved by the Program Manager.

  •   Finding 2013-7: HUDA disagrees with the finding and recommendation. It indicated that it had
      sourced locally through the Afghan Builders Association (ABA) to locate a competent firm in-
      country with expertise and experience, and there was only one firm referred. HUDA further
      states that this firm was approved by the U.S. Embassy Grant Officer.

  •   Finding 2013-8: HUDA disagrees with the finding and recommendation. It indicated that the
      Federal Assistance Awards are not subject to OMB Circular A-122.

  •   Finding 2013-9: HUDA disagrees with the finding and recommendation. It indicated that its
      ability to properly manage a Federal award has been proven by demonstrating due diligence
      and financial responsibility through consistent financial reporting to the U.S. Embassy.

  •   Finding 2013-10: HUDA disagrees with the finding and recommendation. It indicated that
      obtaining a signed MOU was the responsibility of the Afghan Government Ministry of Higher
      Education and the U.S. Embassy, and not a responsibility of HUDA’s. It also indicated that
      there were no costs incurred prior to the MOU being signed.

  •   Finding 2013-11: HUDA disagrees with the finding and recommendation. It indicated that all
      personnel documents were maintained. HUDA also indicated that all staff were properly hired,
      were qualified and had demonstrated proven performance throughout the project.

  •   Finding 2013-12: HUDA agrees with the finding and recommendation. It indicated that the
      finance manual has been revised, and the withholding salary policy was removed.

  •   Finding 2013-13: HUDA disagrees with the finding and recommendation. It indicated that all
      payments made in cash were properly documented and were made to the contracted vendors
      for approved goods and services.


                                                13
                            HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                         For the Period July 15, 2010 to December 31, 2012


SUMMARY

   •   Finding 2013-14: HUDA disagrees with the finding and recommendation. HUDA indicated it
       has appropriate division of labor and duties for all personnel in all the three awards. As a Non-
       Governmental Organization (NGO), it stated it has maintained a cost-effective and best-value
       approach in utilizing professional personnel with broad experience and multi-task capabilities.

   •   Finding 2013-15: HUDA agrees with the finding and recommendation. It indicated that the
       budget overrun was a result of delays due to weather and security challenges, as well as price
       increases which affected the construction costs in Kabul. Additionally, increases in personnel
       costs were due to extended completion periods, which was approved by the U.S. Embassy
       Grant Officer.


Review of Prior Findings and Recommendations

We reviewed the corrective actions taken to address findings and recommendations from previous
engagements that could have a material effect on the FAS. There was one prior engagement with
findings and recommendations that were included in the scope of our audit. Of the 8 findings noted,
adequate corrective action has been implemented on 1 of the findings, 6 of the findings remain
outstanding and have been repeated in this report, and 1 of the findings was a best practice item that
was beyond our scope and thus not repeated.             A summary of these prior findings and
recommendations is as follows:

Annual Financial Audit of HUDA for the years ended December 31, 2009, 2010, and 2011

   1. Pre-printed serial numbered forms for vouchers were not used.

       Recommendation

       The use of pre-printed serial numbered forms for vouchers was recommended to avoid the
       duplication or intentional removal/concealment of records and documents.

       Status of Corrective Action

       Pre-printed serial numbered vouchers have not been implemented. This finding has not been
       resolved. See Finding 2013-9 in the Findings and Responses section of this report.




                                                  14
                          HUDA DEVELOPMENT ORGANIZATION

                             Financial Audit of Costs Incurred under
              Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                   and S-AF200-10-GR-245

                        For the Period July 15, 2010 to December 31, 2012


SUMMARY

  2. Double entry Accounting Software was not used for financial reporting.

     Status of Corrective Action

     HUDA implemented QuickBooks as its accounting software. The corrective action has been
     adequately implemented and this finding is resolved.


  3. There was a lack of an independent internal audit function.

     Recommendation

     An internal audit function should be established that is independent of those who are involved in
     the maintenance of accounting records and preparation of the financial statements.

     Status of Corrective Action

     An internal audit function has not yet been established. Since this recommendation involves the
     organizational structure of HUDA, which is outside the scope of this audit, it has not been
     repeated as a recommendation. Additionally, establishment of an internal audit function is a
     best practice and not a requirement of the Awards.


  4. There was a general lack of quotations, bid analysis and purchase orders.

     Recommendation

     HUDA needs to maintain procurement cycle documentation in accordance with its policies and
     procedures to ensure sound internal control over procurement functions.

     Status of Corrective Action

     During our audit, we noted that HUDA did not follow its procurement policies and procedures.
     This finding has not been resolved. See Finding 2013-1 in the Findings and Responses section
     of this report.




                                                15
                          HUDA DEVELOPMENT ORGANIZATION

                             Financial Audit of Costs Incurred under
              Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                   and S-AF200-10-GR-245

                        For the Period July 15, 2010 to December 31, 2012


SUMMARY

  5. A significant number of payments were made in cash.

     Recommendation

     HUDA should ensure that banking channels are used to make payments as much as possible.

     Status of Corrective Action

     During our testing, we noted that a significant number of payments were still being made in cash.
     This finding has not been resolved. See Finding 2013-13 in the Findings and Responses
     section of this report.


  6. Personal files were not properly maintained.

     Recommendation

     A personnel file should be maintained for each employee and updated regularly to include all of
     the essential information and documents as mentioned in the HUDA Policies and Procedures
     Manual.

     Status of Corrective Action

     Personnel files are being maintained, but they do not include all of the documents required by
     the HDO Policies and Procedures Manual, such as the job announcement, written test paper,
     short list form, interview panel’s recommendations, appointment letter, educational/experience
     certificates, performance evaluations, promotion letters and leave records. This finding has not
     been resolved. See Finding 2013-11 in the Findings and Responses section of this report.


  7. Salaries were paid in cash.

     Recommendation

     The payment of employee’s salaries should be made through banking channels.

     Status of Corrective Action

     Salaries for the local core national staff were paid in cash throughout the audit period. This
     finding has not been resolved. See Finding 2013-6 in the Findings and Responses section of
     this report.



                                                16
                          HUDA DEVELOPMENT ORGANIZATION

                             Financial Audit of Costs Incurred under
              Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                   and S-AF200-10-GR-245

                        For the Period July 15, 2010 to December 31, 2012


SUMMARY

  8. Lack of segregation of duties.

     Recommendation

     Staff duties should be segregated such that every staff member should be responsible for one
     part of the organizational function only, and the work of one staff member may be reviewed by
     another staff member.

     Status of Corrective Action

     We noted a continual lack of segregation of duties. The Project Manager had numerous
     responsibilities and concentrated authority. This finding has not been resolved. See Finding
     2013-14 in the Findings and Responses section of this report.




                                               17
                             INDEPENDENT AUDITOR’S REPORT
                           ON FUND ACCOUNTABILITY STATEMENT



Board of Directors
HUDA Development Organization
Pul-e-Surkh, Kart-e-Seh,
Kabul, Afghanistan


Report on the Fund Accountability Statement

We have audited the accompanying Fund Accountability Statement of HUDA Development
Organization (HUDA) under the Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-
GR-147 and S-AF200-10-GR-245 (Awards) from the United States Department of State for the
period July 15, 2010 through December 31, 2012, and the related notes to the Fund
Accountability Statement.


Management’s Responsibility for the Financial Statements

Management is responsible for the preparation and fair presentation of the Fund Accountability
Statement in accordance with accounting principles generally accepted in the United States of
America; this includes the design, implementation, and maintenance of internal control relevant
to the preparation and fair presentation of the Fund Accountability Statement that is free from
material misstatement, whether due to fraud or error.


Auditor’s Responsibility

Our responsibility is to express an opinion on the Fund Accountability Statement based on our
audit. We conducted our audit in accordance with auditing standards generally accepted in the
United States of America and the standards applicable to financial audits contained in
Government Auditing Standards, issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain reasonable assurance
about whether the Fund Accountability Statement is free from material misstatement, except as
it relates to continuing education and peer review requirements as discussed in the following
paragraph.

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years, and the audit organization have an external peer review performed by


                                              18
Board of Directors
HUDA Development Organization
Pul-e-Surkh, Kart-e-Seh,
Kabul, Afghanistan

reviewers independent of the organization at least once every three years. We subcontracted a
portion of the audit to an independent chartered public accounting firm with an office located in
Kabul, Afghanistan. The work performed by our subcontractor consisted of performing all
fieldwork located in Afghanistan. Our subcontractor was not involved in the planning, directing
or reporting aspects of the audit. Our subcontractor did not meet the continuing professional
education requirements or peer review requirements as outlined in Government Auditing
Standards, as the firm is located and licensed outside of the United States of America. The
results of the audit were not affected as we directed the procedures performed and reviewed the
work completed by our subcontractor.

An audit involves performing procedures to obtain audit evidence about the amounts and
disclosures in the Fund Accountability Statement. The procedures selected depend on the
auditor’s judgment, including the assessment of the risks of material misstatement of the Fund
Accountability Statement, whether due to fraud or error. In making those risk assessments, the
auditor considers internal control relevant to the entity’s preparation and fair presentation of the
Fund Accountability Statement in order to design audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the effectiveness of the
entity’s internal control. Accordingly, we express no such opinion. An audit also includes
evaluating the appropriateness of accounting policies used and the reasonableness of
significant accounting estimates made by management, as well as evaluating the overall
presentation of the Fund Accountability Statement.

We believe that the audit evidence we have obtained is sufficient and appropriate to provide a
basis for our audit opinion.


Basis for Qualified Opinion

During our audit, we identified several items of cost that we determined as either ineligible or
questioned based upon our review of the underlying support for the specified transactions.
Ineligible costs are those costs that are deemed to not be allowable in accordance with the
terms of the Awards and applicable laws and regulations, including Office of Management and
Budget (OMB) Circular A-122. Unsupported costs are those costs for which no or inadequate
supporting documentation was provided. The ultimate determination of whether the identified
questioned costs are to be accepted or disallowed rests with the United States Department of
State.


Qualified Opinion

In our opinion, except for the ultimate determination and resolution of the identified questioned
costs in the amount of $2,405,102, the Fund Accountability Statement referred to above
presents fairly, in all material respects, the respective revenue received and costs incurred by
HUDA under the Awards for the period July 15, 2010 through December 31, 2012 in
accordance with the basis of accounting as described in Note 2.




                                                19
Board of Directors
HUDA Development Organization
Pul-e-Surkh, Kart-e-Seh,
Kabul, Afghanistan

Other Reporting Required by Government Auditing Standards

In accordance with Government Auditing Standards, we have also issued our reports dated July
12, 2013 on our consideration of HUDA's internal control over financial reporting and on our
tests of its compliance with certain provisions of laws, regulations, contracts, and grant
agreements and other matters. The purpose of those reports is to describe the scope of our
testing of internal control over financial reporting and compliance and the results of that testing,
and not to provide an opinion on internal control over financial reporting or on compliance.
Those reports are an integral part of an audit performed in accordance with Government
Auditing Standards in considering HUDA’s internal control over financial reporting and
compliance.




Irvine, California
July 12, 2013




                                                20
                                  HUDA DEVELOPMENT ORGANIZATION
                                      Financial Audit of Costs Incurred under
                                 HUDA Development Organization (HUDA) under
                       Federal Assistance Awards SAF-200-10-GR 146, SAF-200-10-GR 147
                                            and SAF-200-10-GR 245

                                           Fund Accountability Statement

                             For the period July 15, 2010 through December 31, 2012




                                                                                     Questioned Costs
                                               Budget            Actual          Ineligible   Unsupported        Notes
Revenues:
   SAF-200-10-GR 146                       $    2,674,721    $ 2,674,577     $          -      $          -
   SAF-200-10-GR 147                            2,634,494      2,634,494                -                 -
   SAF-200-10-GR 245                            8,374,239      2,093,560                -                 -        (3)

Total revenues                                 13,683,454        7,402,631              -                 -

Costs incurred:
   Personnel                                    1,022,954          989,371          56,483           317,455     (4), (9)
   Travel                                          55,112           49,745             -               5,747       (5)
   Equipment                                    4,601,509        2,115,791          77,685           648,809     (6), (9)
   Construction work and supplies               7,392,299        3,658,593          35,309         1,186,796       (7)
   Other direct costs                             431,424            7,947             -                 -
   Indirect costs                                 180,156          293,000           3,992            72,826     (8), (9)

Total costs incurred                           13,683,454        7,114,447         173,469         2,231,633

Outstanding fund balance (deficit)         $          -           288,184          (173,469)       (2,231,633)    (10)




                                     See Notes to Fund Accountability Statement

                                                            21
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                               Notes to Fund Accountability Statement

                         For the Period July 15, 2010 to December 31, 2012


(1)   Status and Operation

      HUDA Development Organization Afghanistan (HUDA) is a non-governmental, non-political and
      nonprofit organization established on October 15, 2009. HUDA aims to help developmental
      organizations to create genuine and consistent developmental practices in the field and, through
      that, the kinds of organizations and leadership that make these practices a sustainable reality.

      The purpose of these Awards was to support the Afghanistan Media Project (Project). The
      outcome of the Awards was to build media centers in five universities throughout Afghanistan
      with the following objectives:

         •     Provide the universities with modern training facilities and equipment to develop and
               distribute print, radio and television materials;

         •     Enhance students' abilities to broadcast self-generated and community information
               products; and

         •     Enhance faculty and students' capabilities in the use of modern media production
               technologies.

      By jointly developing the skills of faculty and students in these three mediums, the Project was
      to promote journalism and further build the capacity of the next generation of Afghan journalists.
      It was to provide the journalism departments of the universities with the ability to do print, radio
      and television production in both Dari and Pashto, and allow future journalists to conduct radio
      and television talk shows with local leaders on key issues.

      On July 15, 2010, the United States Department of State (State Department) awarded
      $11,650,569 in Federal Assistance Awards (Awards) to HUDA.         These awards were
      subsequently amended and through December 31, 2012, the total award was $13,683,484 as
      follows:

                                                            Number of
                 Award Number            Initial Award     Amendments         Total Award
             S-AF200-10-GR-146           $ 1,703,750            4             $ 2,674,721
             S-AF200-10-GR-147              1,572,580           4               2,634,494
             S-AF200-10-GR-245              8,374,239           2               8,374,239

              Total awards               $11,650,569                          $13,683,454




                                                  22
                          HUDA DEVELOPMENT ORGANIZATION

                             Financial Audit of Costs Incurred under
              Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                   and S-AF200-10-GR-245

                             Notes to Fund Accountability Statement

                                           (Continued)


(2)   Summary of Significant Accounting Policies

      (a)    Basis of Accounting

             The Fund Accountability Statement reflects the revenues received and expenses
             incurred under the Contract. It has been prepared on the accrual basis of accounting.
             Under the accrual basis of accounting, revenues are recognized when earned and
             expenses are recognized when incurred.

      (b)    Foreign Currency Conversion Method

             Transactions in currencies other than the reporting currency (U.S. Dollar) have been
             translated from the local currency of Afghanistan at the prevailing exchange rate on the
             dates of the respective transactions.

      (c)    Questioned Costs

             There are two categories of questioned costs, ineligible and unsupported. Ineligible
             costs are those costs that are deemed to not be allowable in accordance with the terms
             of the awards and applicable laws and regulations, including Office of Management and
             Budget (OMB) Circular A-122. Unsupported costs are those costs for which no or
             inadequate supporting documentation was provided.


(3)   Revenues

      As of December 31, 2012, HUDA has received $7,402,631 in payments from the State
      Department under the three awards.


(4)   Personnel

      HUDA reported personnel costs, which include salaries and consultants, in the amount of
      $989,371 for the period July 15, 2010 through December 31, 2012 as follows:

            S-AF200-10-GR-146              $380,621
            S-AF200-10-GR-147               366,800
            S-AF200-10-GR-245               241,950

             Total personnel costs         $989,371




                                                23
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                                Notes to Fund Accountability Statement

                                               (Continued)


(4)   Personnel (Continued)

      Unsupported personnel costs consisted of the following:

         •     Cash payments in the amount of $78,455 paid to national staff were not supported by
               timesheets which were approved by their supervisors. See Finding 2013-6 in the
               Findings and Responses section of this report.

         •     Payments to quality assurance/quality control consultants in the amount of $239,000 for
               which there was no evidence that a competitive procurement was performed. See
               Finding 2013-7 in the Findings and Responses section of this report.

         Total unsupported Personnel costs by Award are as follow:

                                                                  Award SAF-200-10-GR
                                Observation                    146       147         245       Total
               Timesheets lacked supervisor approval and     $ 18,265 $ 18,240     $41,950   $ 78,455
                salaries paid in cash
               No competitive bid                             119,500    119,500         -    239,000

                Total questioned personnel costs             $137,765   $137,740   $41,950   $317,455


(5)   Travel

      HUDA reported travel costs in the amount of $49,745 for the period July 15, 2010 through
      December 31, 2012 as follows:

             S-AF200-10-GR-146                     $19,126
             S-AF200-10-GR-147                       5,986
             S-AF200-10-GR-245                      24,633

               Total personnel costs               $49,745

      During our review of travel costs, we noted $5,747 of costs charged to S-AF200-10-GR-245 that
      were not included in HUDA’s accounting records. As such, the costs have been questioned.
      See Finding 2013-4 in the Findings and Responses section of this report.




                                                     24
                           HUDA DEVELOPMENT ORGANIZATION

                              Financial Audit of Costs Incurred under
               Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                    and S-AF200-10-GR-245

                              Notes to Fund Accountability Statement

                                            (Continued)


(6)   Equipment

      HUDA reported equipment costs in the amount of $2,115,791 for the period July 15, 2010
      through December 31, 2012 as follows:

             S-AF200-10-GR-146             $ 735,719
             S-AF200-10-GR-147               735,263
             S-AF200-10-GR-245               644,809

              Total equipment costs       $2,115,791

      Unsupported equipment costs consisted of the following:

         •    The invoice provided to support the cost to construct a canopy at the Kabul University
              Media Operations Center was $4,000 less than the amount billed to Award SAF-200-10-
              147. See Finding 2013-2 in the Findings and Responses section of this report.

         •    Lack of evidence that equipment was competitively bid in the amount of $644,809
              charged to Award S-AF200-10-GR-245. See Finding 2013-1 in the Findings and
              Responses section of this report.

         Total unsupported costs were $648,809.


(7)   Construction Work and Supplies

      HUDA reported construction work and supplies in the amount of $3,658,593 for the period July
      15, 2010 through December 31, 2012 as follows:

             S-AF200-10-GR-146                         $1,529,237
             S-AF200-10-GR-147                          1,583,286
             S-AF200-10-GR-245                            546,070

              Total construction work and supplies     $3,658,593

      Unsupported construction work and supplies consisted of the following:

         •    Lack of evidence that construction work and supplies were competitively bid in the
              amounts of $207,148, $46,679 and $315,744 charged to Awards S-AF200-10-GR-146,
              S-AF200-10-GR-147 and S-AF200-10-GR-245, respectively. See Finding 2013-1 in the
              Findings and Responses section of this report.



                                                 25
                           HUDA DEVELOPMENT ORGANIZATION

                             Financial Audit of Costs Incurred under
              Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                   and S-AF200-10-GR-245

                               Notes to Fund Accountability Statement

                                              (Continued)


(7)   Construction Work and Supplies (Continued)

         •   Invoice amounts were less than those recorded in the accounting records, payments
             were made in excess of contract amounts, there was no evidence of final payment and
             unsupported payments were noted in the amounts of $10,776 and $61,470 charged to
             awards S-AF200-10-GR-147 and S-AF200-10-GR-245, respectively. See Finding 2013-
             2 in the Findings and Responses section of this report.

         •   A payment in the amount of $3,850 was made to an individual other than the vendor that
             performed the work. Additionally, a payment in the amount of $79,200 was made to the
             HUDA Project Manager who allegedly paid the vendor in cash. Both instances are
             under Award S-AF200-10-GR-146. See Finding 2013-3 in the Findings and Responses
             section of this report.

         •   Costs in the amount of $56,100 which were charged to Award S-AF200-10-GR-245 but
             not recorded in the accounting records. See Finding 2013-4 in the Findings and
             Responses section of this report.

         •   HUDA did not provide adequate supporting documentation consisting of invoices,
             agreements, purchase orders, evidence of payment, acknowledgement of receipt of
             payment and/or evidence of deliveries/output in the amounts of $333,821, $29,644 and
             $42,364 for Awards S-AF200-10-GR-146, S-AF200-10-GR-147 and S-AF200-10-GR-
             245, respectively. See Finding 2013-5 in the Findings and Responses section of this
             report.

         Total unsupported construction work and supplies, by Award, are as follows:

                                                             Award S-AF200-10-GR-
                             Observation                  146        147        245         Total
             Missing competitive bid documents          $207,148   $46,679   $315,744     $ 569,571
             Invoice amounts were less than recorded
               in the accounting records, no evidence
               of final payment and payments were
               unsupported                                       -    10,776     61,470      72,246
             Incorrect recipient signature and check
               endorsed by Project Manager                  83,050         -          -      83,050
             Costs not included in accounting records            -         -     56,100      56,100
             Lack of sufficient documentation to
               support payment                           333,821      29,644     42,364     405,829

              Total questioned construction work and
               supplies                                 $624,019     $87,099   $475,678   $1,186,796




                                                   26
                            HUDA DEVELOPMENT ORGANIZATION

                              Financial Audit of Costs Incurred under
               Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                    and S-AF200-10-GR-245

                               Notes to Fund Accountability Statement

                                            (Continued)


(8)   Indirect Costs

      HUDA reported indirect costs in the amount of $293,000 for the period July 15, 2010 through
      December 31, 2012 as follows. HUDA did not charge indirect costs based upon an approved
      indirect cost rate, but rather directly charged administrative expenses under this cost category.

             S-AF200-10-GR-146              $ 65,647
             S-AF200-10-GR-147                59,499
             S-AF200-10-GR-245               167,854

              Total indirect costs          $293,000

      Unsupported indirect costs consisted of the following:

         •    No supporting documentation was provided for costs charged in the amounts of $910
              and $626 to Awards S-AF200-10-GR-146 and S-AF200-10-GR-245, respectively. See
              Finding 2013-2 in the Findings and Responses section of this report.

         •    One transaction in the amount of $10,080 was missing an agreement and evidence of
              deliveries/output for Award S-AF200-10-GR-146. See Finding 2013-5 in the Findings
              and Responses section of this report.

         •    Cash payments in the amounts of $7,179, $6,642 and $44,389 under Awards S-AF200-
              10-GR-146, S-AF200-10-GR-147 and S-AF200-10-GR-245, respectively, were paid in
              cash to core national staff and were not supported by timesheets of the employees
              which were signed by their supervisors. See Finding 2013-6 in the Findings and
              Responses section of this report.

         •    Audit costs in the amount of $1,500 for a period prior to the period of performance were
              charged to Award S-AF200-10-GR-146. Additionally, audit costs in the amount of
              $3,000 were not approved by the State Department. See Finding 2013-8 in the Findings
              and Responses section of this report.

         Total ineligible and unsupported indirect costs, by Award, are as follows:




                                                 27
                             HUDA DEVELOPMENT ORGANIZATION

                              Financial Audit of Costs Incurred under
               Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                    and S-AF200-10-GR-245

                                 Notes to Fund Accountability Statement

                                               (Continued)


(8)   Indirect Costs (Continued)

                                                                Award S-AF200-10-GR-
                             Observation                     146        147        245                    Total
             Ineligible costs:
               Cost claimed exceeded budget (see
                  Note 9)                                    $2,492        $   -         $       -        $2,492
               Audit costs prior to period of
                  performance                                 1,500            -                 -         1,500

             Total Ineligible costs                          $3,992            -                 -        $3,992

             Unsupported costs:
              No supporting documentation provided       $     910     $       -     $        626        $ 1,536
              Missing agreement and evidence of
                deliveries/output                            10,080            -                -         10,080
              Cash payments and timesheets not
                approved by Supervisor                        7,179        6,642         44,389           58,210
              Audit costs not approved                        3,000            -              -            3,000

             Total unsupported costs                         21,169        6,642         45,015           72,826

             Total questioned indirect costs             $25,161       $6,642        $45,015             $76,818


(9)   Cost in Excess of Approved Budget

      Total costs reported by HUDA include ineligible cost of $171,969, which represents the cost
      overruns for two Awards as follows:

                                                   S-AF-200-10-GR-146              S-AF-200-10-GR-147
         Total costs incurred                          $2,730,350                      $2,750,834
         Total budget                                   2,674,721                       2,634,494

           Costs incurred in excess of budget            $    55,629                         $ 116,340

      These cost overruns were allocated to the cost categories where the cost overruns occurred.
      The State Department allows for costs to be reallocated between cost categories as long as the
      aggregate amount of the reallocations does not exceed $100,000 and 10% of the budget. The
      actual cost in excess of budget column below does not exceed these thresholds. Therefore, the
      ineligible costs are limited to the actual costs in excess of the total budget, per Award, as follows:




                                                   28
                            HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                                Notes to Fund Accountability Statement

                                               (Continued)


(9)    Cost in Excess of Approved Budget (Continued)

                                                                 Cost in      Percent      Allocation
                                                                Excess of     of total    of Ineligible
              Cost category           Actual       Budget        Budget       Award           Cost
       S-AF200-10-GR-146:
         Personnel                    $380,621 $ 349,892         $ 30,729       37.77%     $ 21,011
         Equipment                     735,719   688,732           46,987       57.75%       32,126
         Indirect costs                 65,647    62,000            3,647        4.48%        2,492

       Total S-AF200-10-GR-146                                      81,363                    55,629*

       S-AF200-10-GR-147:
         Personnel                     366,800      330,562      $ 36,238       30.49%     $ 35,472
         Equipment                     735,263      688,732        46,531       39.16%       45,559
         Construction work and
         supplies                    1,583,286    1,547,214         36,072      30.35%        35,309

       Total S-AF200-10-GR-147                                    118,841                   116,340

       Total awards                                              $200,204                  $171,969*

       * The FAS on page 21 of this report has a total ineligible cost of $173,469 which is $1,500 more
       than the questioned ineligible costs reference above. This is due to the $1,500 ineligible indirect
       costs for award S-AF200-10-GR146 referenced in Note 8 previously.

       See Finding 2013-15 in the Findings and Responses section of this report.


(10)   Reconciliation

       As of December 31, 2012, HUDA has reported an outstanding fund balance of $288,184. This
       outstanding fund balance was due to timing differences between the receipt and disbursement
       of funds. HUDA received the awards as an advance and had not yet expended all funds
       received.




                                                   29
          REPORT ON INTERNAL CONTROL OVER FINANCIAL REPORTING
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS



                                Independent Auditor’s Report


Board of Directors
HUDA Development Organization
Pul-e-Surkh, Kart-e-Seh
Kabul, Afghanistan


We have audited, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States, the Fund
Accountability Statement of HUDA Development Organization (HUDA) representing revenues
received and costs incurred under Federal Assistance Awards S-AF200-10-GR-146, S-AF200-
10-GR-147 and S-AF200-10-GR-245 for the period July 15, 2010 through December 31, 2012,
and the related Notes to the Fund Accountability Statement, and have issued our report thereon
dated July 12, 2013, except as it relates to continuing education and peer review requirements
as discussed in the following paragraph. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the Fund Accountability Statement is free
from material misstatement.

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years, and the audit organization have an external peer review performed by
reviewers independent of the organization at least once every three years. We subcontracted a
portion of the audit to an independent chartered public accounting firm with an office located in
Kabul, Afghanistan. The work performed by our subcontractor consisted of performing all
fieldwork located in Afghanistan. Our subcontractor was not involved in the planning, directing
or reporting aspects of the audit. Our subcontractor did not meet the continuing professional
education requirements or peer review requirements as outlined in Government Auditing
Standards, as the firm is located and licensed outside of the United States of America. The
results of the audit were not affected as we directed the procedures performed and reviewed the
work completed by our subcontractor.




                                               30
Board of Directors
HUDA Development Organization
Pul-e-Surkh, Kart-e-Seh,
Kabul, Afghanistan

Internal Control over Financial Reporting

In planning and performing our audit of the Fund Accountability Statement, we considered
HUDA's internal control over financial reporting (internal control) to determine the audit
procedures that are appropriate in the circumstances for the purpose of expressing our opinions
on the Fund Accountability Statement, but not for the purpose of expressing an opinion on the
effectiveness of HUDA’s internal control. Accordingly, we do not express an opinion on the
effectiveness of HUDA’s internal control.

Our consideration of internal control over financial reporting was for the limited purpose
described in the first paragraph of this section and was not designed to identify all deficiencies
in internal control over financial reporting that might be deficiencies, significant deficiencies or
material weaknesses. However, as described in the accompanying Findings and Responses,
we identified certain deficiencies in internal control over financial reporting that we consider to
be material weaknesses and significant deficiencies.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to
prevent, or detect and correct misstatements on a timely basis. A material weakness is a
deficiency, or a combination of deficiencies, in internal control such that there is a reasonable
possibility that a material misstatement of the entity’s financial statements will not be prevented,
or detected and corrected on a timely basis. We consider the deficiencies described in the
accompanying Findings and Reponses as Findings 2013-1, 2013-3 and 2013-13 to be material
weaknesses.

A significant deficiency is a deficiency, or a combination of deficiencies, in internal control that is
less severe than a material weakness, yet important enough to merit attention by those charged
with governance. We consider the deficiencies described in the accompanying Findings and
Responses as Findings 2013-2, 2013-4 through 2013-12, 2013-14 and 2013-15 to be significant
deficiencies.


HUDA’s Response to Findings

HUDA’s response to the findings identified in our audit is described in the accompanying
Findings and Responses, and included verbatim in Appendix A. HUDA’s response was not
subjected to the auditing procedures applied in the audit of the Fund Accountability Statement
and, accordingly, we express no opinion on it.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of internal control and
the result of that testing, and not to provide an opinion on the effectiveness of HUDA’s internal
control. This report is an integral part of an audit performed in accordance with Government
Auditing Standards in considering the entity’s internal control. Accordingly, this communication
is not suitable for any other purpose. This report is intended for the information of HUDA
Development Organization, United States Department of State, and the Special Inspector



                                                  31
Board of Directors
HUDA Development Organization
Pul-e-Surkh, Kart-e-Seh,
Kabul, Afghanistan

General for Afghanistan Reconstruction. Financial information in this report may be privileged.
The restrictions of 18 USC 1905 should be considered before any information is released to the
public.




Irvine, California
July 12, 2013




                                              32
                REPORT ON COMPLIANCE AND OTHER MATTERS
         BASED ON AN AUDIT OF THE FUND ACCOUNTABILITY STATEMENT
      PERFORMED IN ACCORDANCE WITH GOVERNMENT AUDITING STANDARDS


                                Independent Auditor’s Report

Board of Directors
HUDA Development Organization
Pul-e-Surkh, Kart-e-Seh,
Kabul, Afghanistan


We have audited, in accordance with the auditing standards generally accepted in the United
States of America and the standards applicable to financial audits contained in Government
Auditing Standards issued by the Comptroller General of the United States, the Fund
Accountability Statement of HUDA Development Organization (HUDA) representing revenues
received and costs incurred under Federal Assistance Awards S-AF200-10-GR-146, S-AF200-
10-GR-147 and S-AF200-10-GR-245 for the period July 15, 2010 through December 31, 2012,
and the related Notes to the Fund Accountability Statement, and have issued our report thereon
dated July 12, 2013, except as it relates to continuing education and peer review requirements
as discussed in the following paragraph. Those standards require that we plan and perform the
audit to obtain reasonable assurance about whether the Fund Accountability Statement is free
from material misstatement.

Government Auditing Standards require, among other things, that auditors performing audits in
accordance with Government Auditing Standards obtain 24 hours of continuing professional
education every 2 years, and the audit organization have an external peer review performed by
reviewers independent of the organization at least once every three years . We subcontracted a
portion of the audit to an independent chartered public accounting firm with an office located in
Kabul, Afghanistan. The work performed by our subcontractor consisted of performing all
fieldwork located in Afghanistan. Our subcontractor was not involved in the planning, directing
or reporting aspects of the audit. Our subcontractor did not meet the continuing professional
education requirements or peer review requirements as outlined in Government Auditing
Standards, as the firm is located and licensed outside of the United States of America. The
results of the audit were not affected as we directed the procedures performed and reviewed the
work completed by our subcontractor.


Compliance and Other Matters

As part of obtaining reasonable assurance about whether HUDA's Fund Accountability
Statement is free from material misstatement, we performed tests of its compliance with certain


                                               33
Board of Directors
HUDA Development Organization
Pul-e-Surkh, Kart-e-Seh,
Kabul, Afghanistan

provisions of laws, regulations, and the aforementioned Federal Assistance Awards,
noncompliance with which could have a direct and material effect on the determination of
financial statement amounts. However, providing an opinion on compliance with those
provisions was not an objective of our audit, and accordingly, we do not express such an
opinion. The results of our tests disclosed instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards and which are described in the
accompanying Findings and Responses as items 2013-1, 2013-6 through 2013-8, 2013-10, and
2013-15.


HUDA’s Response to Findings

HUDA’s responses to the findings identified in our audit are described in the accompanying
Findings and Responses, and included verbatim in Appendix A. HUDA’s responses were not
subjected to the auditing procedures applied in the audit of the Fund Accountability Statement
and, accordingly, we express no opinion on them.


Purpose of this Report

The purpose of this report is solely to describe the scope of our testing of compliance and the
result of that testing, and not to provide an opinion on compliance. This report is an integral part
of an audit performed in accordance with Government Auditing Standards in considering the
entity’s internal control. Accordingly, this communication is not suitable for any other purpose.
This report is intended for the information of HUDA Development Organization, United States
Department of State, and the Special Inspector General for Afghanistan Reconstruction.
Financial information in this report may be privileged. The restrictions of 18 USC 1905 should
be considered before any information is released to the public.




Irvine, California
July 12, 2013




                                                34
                              HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


2013-1: Lack of Competitive Bidding Process

Condition:
Our review of HUDA’s competitive bidding process noted that HUDA did not consistently bid projects on
a competitive basis and failed to retain various documentation associated with the procurement as
follows:

                                                                      Award S-AF200-10-GR-
                            Description                              146       147      245          Total
   Equipment:
      No requisition; only one quote provided; quote is lump
        sum only with no breakdown of individual items; no
        contract or purchase order                               $        -   $     -   $644,809    $644,809

   Total equipment                                                        -         -    644,809     644,809

   Construction work and supplies:
      No documentation of competitive bid process for 5
        transactions for 146, 1 transaction for 147 and 2
        transactions for 245                                         84,250    12,780    159,364     256,394
      No documentation of competitive bid process and no
        acknowledgement of receipt of payment for 2
        transactions for 146                                         20,000         -          -      20,000
      No documentation of competitive bid process, cost not
        included on invoice and lack of sufficient evidence of
        payment for 1 transaction for 146                            39,850         -          -      39,850
      No documentation of competitive bid process and no
        agreement with contractor for 1 transaction for 146
        and 1 transaction for 245                                    63,048         -     20,000      83,048
      No documentation of competitive bid process and
        voucher not approved by Project Manager for 1
        transaction for 147                                               -    10,000          -      10,000
      No documentation of competitive bid process, no
        agreement with contractor and voucher not
        approved by Project Manager for 1 transaction for                 -    10,255          -      10,255
        147
      No documentation of competitive bid process, no
        agreement with contractor and no soils testing report
        for 1 transaction for 147                                         -    13,644          -      13,644
      No documentation of competitive bid process and no
        evidence of payment for 1 transaction for 245                     -         -     40,000      40,000
      No documentation of competitive bid process and lack
        of evidence of full payment for 1 transaction for 245             -         -     96,380      96,380

   Total construction work and supplies                           207,148      46,679    315,744     569,571

   Total questioned costs due to lack of competitive bids        $207,148     $58,699   $948,553   $1,214,380



                                                      35
                              HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


2013-1: Lack of Competitive Bidding Process (Continued)

This condition was also reported in the annual audit of HUDA for the years ended December 31, 2009,
2010 and 2011.


Cause:
HUDA stated that there was a limited number of specialized suppliers available, thus competitive
bidding procedures were not used. Additionally, lack of management oversight resulted in the omission
of documented evidence of procurement.


Criteria:
OMB Circular A-110, Paragraph 43, Competition, states, in part:

         “…All procurement transactions shall be conducted in a manner to provide, to the
         maximum extent practical, open and free competition. The recipient shall be alert to
         organizational conflicts of interest as well as noncompetitive practices among
         contractors that may restrict or eliminate competition or otherwise restrain trade…”

Additionally, HUDA Finance Manual, Section 3, Purchase Cycle, states, in part:

         “…Quotation shall be called for items with value of $100 or above. For items valuing
         more than $100 and less than $15,000, at least three quotations will be obtained. For
         items valuing $ 15,000 and more, international bid process will apply. Original purchase
         documents should be maintained at main office…”


Effect:
Lack of a competitive procurement process can result in the payment of more than market for goods
and services. This resulted in questioned equipment of $644,809 under Award S-AF200-10-GR-245,
and questioned construction work and supplies expenses of $569,571, which consists of $207,148
under Award S-AF200-10-GR-146, $46,679 under Award S-AF200-10-GR-147 and $315,744 under
Award S-AF200-10-GR-245.


Recommendation:
   (1) We recommend that HUDA either provide the State Department with the missing
       documentation regarding competitive bids, or return $1,214,380 to the State Department for
       projects that were not competitively bid.

   (2)    We recommend that HUDA implement improved controls to ensure it follows the requirements
          of its Finance Manual when procuring goods and/or services.



                                                   36
                             HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


2013-2: Supporting Documentation Not Provided

Condition:
HUDA was unable to provide any supporting documentation or the documentation provided did not fully
support the cost claimed for the following items:

                                                                Award S-AF200-10-GR-
                             Description                       146       147      245           Total
   Equipment:
      Invoice supports $4,000, yet $8,000 included in
        accounting records                                    $     -    $4,000    $        -   $ 4,000

   Total equipment                                                  -     4,000             -     4,000

   Construction work and supplies:
      Invoice amounts less than accounting records                  -     9,566             -     9,566
      Payments in excess of contract amount                         -     1,210             -     1,210
      No evidence of final payment                                  -         -        41,180    41,180
      Unsupported payment                                           -         -        20,290    20,290

   Total construction work and supplies                             -    10,776        61,470    72,246

   Indirect costs:
        No supporting documentation provided                      910          -           -       910
        No supporting documentation provided                        -          -         626       626

   Total indirect costs                                           910          -         626      1,536

   Total questioned costs due to missing documentation or
    documentation provided did not fully support the costs
    incurred                                                  $910      $14,776    $62,096      $77,782


Cause:
Management was unable to locate invoices to support some costs, and lacked an adequate review
process for those costs that were billed in excess of the invoice amounts.


Criteria:
OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General Principles,
Part A, Basic Considerations, states, in part:

       “…2. Factors affecting allowability of costs. To be allowable under an award, costs
       must meet the following general criteria:




                                                        37
                             HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-2: Supporting Documentation Not Provided (Continued)

         “a. Be reasonable for the performance of the award and be allocable thereto under
         these principles;…

         c. Be consistent with policies and procedures that apply uniformly to both federally-
         financed and other activities of the organization;…

         e. Be determined in accordance with generally accepted accounting principles
         (GAAP);…

         g. Be adequately documented....”


Effect:
Lack of management review of invoices submitted to the State Department can result in the billing of
unauthorized expenses. This resulted in questioned equipment of $4,000 under Award S-AF200-10-
GR-147, questioned construction work and supplies expenses of $72,246, consisting of $10,776 under
Award S-AF200-10-GR-147 and $61,470 under Award S-AF200-10-GR-245, and questioned indirect
cost of $1,536, consisting of $910 under Award S-AF200-10-GR-146 and $626 under Award S-AF200-
10-GR-245.


Recommendation:
   (1) We recommend that HUDA either provide the State Department with the missing
       documentation, or return $77,782 to the State Department because the costs against which
       the funds were claimed were either unsupported or the invoice amount was less than the cost
       claimed.

   (2)    We recommend that HUDA establish procedures to ensure that amounts included on invoices
          are properly supported by the accounting records.




                                                  38
                            HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                         For the Period July 15, 2010 to December 31, 2012


2013-3: Suspicious Payments to Unidentified Individuals

Condition:
The following questionable payments to vendors for construction work and supplies were identified:

   •   Payment in the amount of $3,850 was made to a quality assurance/quality control firm for
       consultation services under Award S-AF200-10-GR-146. The check was subsequently
       canceled and the payment purported to be made in cash. However, the signature of the
       acknowledgement of receipt was different from the owner’s signature in other related
       documentation we reviewed. It appears that the payment was made to another individual.

   •   Payment in the amount of $79,200 was approved by the HUDA Project Manager to a vendor for
       the provision of labor for extra construction work under Award S-AF200-10-GR-146. A
       competitive bidding process was not used. Additionally, the check to the vendor was signed,
       approved and cashed by the HUDA Project Manager instead of the vendor, and the HUDA
       Project Manager allegedly paid the vendor in cash. Although an acknowledgement of receipt of
       the cash was signed, we are unable to determine whether the individual that signed the form is
       the actual vendor as no other documentation bearing the vendor’s signature was available for
       review.

Total questioned costs were $83,050.


Cause:
Management lacked adequate internal controls over financial oversight to ensure payments were made
only to authorized vendors.


Criteria:
OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General Principles,
Part A, Basic Considerations, states, in part:

       “…2. Factors affecting allowability of costs. To be allowable under an award, costs
       must meet the following general criteria:

       a. Be reasonable for the performance of the award and be allocable thereto under these
       principles;…

       c. Be consistent with policies and procedures that apply uniformly to both federally-
       financed and other activities of the organization;…

       e. Be determined in accordance with generally accepted accounting principles
       (GAAP);…



                                                  39
                             HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-3: Suspicious Payments to Unidentified Individuals (Continued)

         “g. Be adequately documented....”


Effect:
Failure to have adequate internal controls surrounding cash disbursements can result in unauthorized
payments. This resulted in total questioned costs of $83,050 under Award S-AF200-10-GR-146.


Recommendation:
   (1) We recommend that HUDA either return $83,050 to the State Department or provide
       documentation to the State Department as to the validity of the questionable payments.

   (2)    We recommend that HUDA establish procedures to ensure that payments are made only to
          authorized vendors.




                                                 40
                             HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-4: Cost Claimed to the Awards not Recorded in Underlying Accounting Records

Condition:
Two transactions charged to Award S-AF200-10-GR-245, which were claimed under construction work
and supplies and travel expenses in the amounts of $56,100 and $5,747, respectively, were not
recorded in HUDA’s accounting records.


Cause:
This condition occurred due to a lack of management review of HUDA’s accounting records and failure
to reconcile of amounts recorded in the accounting records to amounts billed to the State Department.


Criteria:
OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General Principles,
Part A, Basic Considerations, states, in part:

         “…2. Factors affecting allowability of costs. To be allowable under an award, costs
         must meet the following general criteria:

         e. Be determined in accordance with generally accepted accounting principles
         (GAAP);…

         g. Be adequately documented....”


Effect:
Lack of management review of invoices submitted to the State Department can result in the billing of
unauthorized expenses. This resulted in questioned construction supplies expenses of $56,100 and
questioned travel expenses of $5,747.


Recommendation:
   (1) We recommend that HUDA either return $61,847 to the State Department or provide the State
       Department with evidence supporting that the costs claimed were recorded in its books.

   (2)    We recommend HUDA establish procedures to ensure that amounts included on invoices are
          properly supported by the accounting records.




                                                 41
                              HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


2013-5: Lack of Adequate Record Retention in the Procurement Cycle

Condition:
Supporting documentation within the procurement process, consisting of agreements, purchase orders,
invoices, evidence of delivery and payment, was not provided as follows:

                                                                   Award S-AF200-10-GR-
                             Description                          146       147      245        Total
   Construction work and supplies:
      Missing Subcontractor or Suppliers’
        Agreement/Purchase Order for 4 transactions for
        146 and 2 transactions for 245**                        $104,778   $     -   $42,364   $147,142
      Missing invoice for 1 transaction for 146                   64,000         -         -     64,000
      Missing evidence of payment/acknowledgement of
        receipt of payment for 7 transactions for 146            144,043         -         -    144,043
      Missing evidence of payment and evidence of
        deliveries/output for 1 transaction for 146               21,000         -         -     21,000
      Missing evidence of deliveries/output for 1 transaction
        for 147                                                        -    13,644         -     13,644
      Missing invoice and evidence of payment for 1
        transaction for 147                                            -    16,000         -     16,000

   Total construction work and supplies                          333,821    29,644    42,364    405,829

   Indirect cost:
        Missing agreement and evidence of deliveries/output
         for 1 transaction for 146                                10,080         -         -     10,080

   Total indirect cost                                            10,080         -         -     10,080

   Total questioned costs due to insufficient support           $343,901   $29,644   $42,364   $415,909

** The total amount questioned under construction work and supplies for Award S-AF200-10-GR-146 is
$183,978, of which $79,200 was questioned in Finding 2013-3. As such, only $104,778 is questioned
under this Finding.


Cause:
This condition occurred due to a lack of management oversight over its procurement process.
Inadequate records retention for purchased goods and/or services resulting in management being
unable to retrieve the requested supporting documentation.


Criteria:
OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General Principles,
Part A, Basic Considerations, states, in part:


                                                        42
                             HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


2013-5: Lack of Adequate Record Retention in the Procurement Cycle (Continued)

         “…2. Factors affecting allowability of costs. To be allowable under an award, costs
         must meet the following general criteria:

         a. Be reasonable for the performance of the award and be allocable thereto under these
         principles;…

         c. Be consistent with policies and procedures that apply uniformly to both federally-
         financed and other activities of the organization;…

         e. Be determined in accordance with generally accepted accounting principles
         (GAAP);…

         g. Be adequately documented....”


Effect:
Lack of adequate policies to retain documents supporting costs claimed can result in otherwise
allowable costs being questioned. This resulted in questioned construction work and supplies
expenses of $405,829, consisting of $333,821 under Award S-AF200-10-GR-146, $29,644 under
Award S-AF200-10-GR-147, and $42,364 under Award S-AF200-10-GR-245, and questioned indirect
cost of $10,080 under Award S-AF200-10-GR-146.


Recommendation:
   (1) We recommend that HUDA either provide the missing documentation to the State Department
       or return $415,909 to the State Department for unsupported costs.

   (2)    We recommend that HUDA establish procedures to ensure that all documentation supporting
          costs claimed is retained as required by the awards.




                                                  43
                            HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                         For the Period July 15, 2010 to December 31, 2012


2013-6: Salaries Paid in Cash and Missing Supervisory Approval for Timesheets

Condition:
Salaries of all local core national staff were paid in cash throughout the period July 15, 2010 through
December 31, 2012. Additionally, the monthly time sheets of all of the sampled employees supporting
the payroll sheets were not approved by the immediate supervisor. These conditions occurred in all 10
of the months tested. Therefore, all personnel costs and associated indirect costs incurred by core
national staff for the entire 28-month period were questioned as follows:

                                                     Cost Category                 Total
            Award Number                       Personnel     Indirect Cost   Questioned Costs
   S-AF200-10-GR-146                            $18,265        $ 7,179          $ 25,444
   S-AF200-10-GR-147                             18,240           6,642            24,882
   S-AF200-10-GR-245                             41,950         44,389             86,339

     Total questioned personnel costs            $78,455       $58,210          $136,665

This condition was also reported in the annual audit of HUDA for the years ended December 31, 2009,
2010 and 2011.


Cause:
The conditions occurred due to a lack of adequate management oversight, as well as a lack of
enforcement of its finance manual. In addition, the CFO was not familiar with the requirements of OMB
Circular A-122.


Criteria:
HUDA Finance Manual, Section 5, Salary Payment Cycle, states, in part:

       “Salaries shall be paid through banks.”

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, Selected Items of
Cost, Paragraph 8, Compensation for personal services, states, in part:

       “...m. Support of salaries and wages.

       (1) Charges to awards for salaries and wages, whether treated as direct costs or
       indirect costs, will be based on documented payrolls approved by a responsible
       official(s) of the organization…




                                                    44
                            HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-6: Salaries Paid in Cash and Missing Supervisory Approval for Timesheets (Continued)

         “(2)(c) The reports must be signed by the individual employee and by a responsible
         supervisory official having first-hand knowledge of the activities performed by the
         employee…”


Effect:
Paying salaries in cash can increase the risk of cash being misappropriated, especially in a hostile
environment where adequate internal controls can be difficult to implement. In addition, lack of
supervisory review of timesheets can result in unauthorized or inaccurate hours charged to the Awards.
Total questioned personnel and associated indirect costs were $136,665, consisting of $25,444 under
Award S-AF-200-10-146, $24,882 under Award S-AF200-10-GR-147, and $86,339 under Award S-AF-
200-10-245, as well as non-compliance with OMB Circular A-122 and the HUDA Finance Manual.


Recommendation:
   (1) We recommend that HUDA return $136,665 to the State Department for unsupported
       personnel costs paid in cash, or provide the State Department with adequate documentation
       to support that the costs incurred were allowable and represented actual hours worked.

   (2)    We recommend that HUDA institute a banking agreement so that all salaries may be paid
          through the bank.

   (3)    We recommend that HUDA implement a timekeeping policy to require management to review
          and approve via signature that the timesheets submitted by employees are accurate and
          represent actual hours worked.




                                                 45
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-7: Missing Documentation of Competitive Bid Process and Costs Appear Unreasonable

During the testing of personnel costs under Federal Assistance Awards S-AF200-10-GR-146 and S-
AF200-10-GR-147, we noted hiring services were performed by a third party quality assurance/quality
control (QA/QC) firm during the period October 2010 through December 2012. The total cost incurred
was $239,000, with $119,500 charged to each Award. Our testing noted the following:

   •   No documentation was provided to support whether this contract was competitively bid;

   •   Costs were comparatively higher than other similar services performed. For instance, another
       QA/QC service performed for a similar project at a different university for same period of
       performance was only $132,620;

   •   Payment patterns appear irregular. For example, in October and November 2010, the monthly
       payment was $4,500. Then for the subsequent 9 months, the payments were $25,556 per
       month. Finally, during the closeout period of the contract, an amount of $81,500 was paid; and

   •   Payments for the QA/QC services appeared to be in advance instead of on a cost
       reimbursement basis, which did not agree with the terms of the contract with the QA/QC firm.
       For example, HUDA began paying the QA/QC firm for its services in October 2010, but the first
       services result report was for the period of March 2011.


Cause:
Management indicated that procuring the quality assurance/quality control firm through a competitive
process was not required as the size of the contract was insignificant, i.e., less than 10% of the award.


Criteria:
OMB Circular A-110, Paragraph ___.43, Competition, states, in part:

       “…All procurement transactions shall be conducted in a manner to provide, to the
       maximum extent practical, open and free competition. The recipient shall be alert to
       organizational conflicts of interest as well as noncompetitive practices among
       contractors that may restrict or eliminate competition or otherwise restrain trade…”

Additionally, HUDA Finance Manual, Section 3, Purchase Cycle, states, in part:

       “…Quotation shall be called for items with value of $100 or above. For items valuing
       more than $100 and less than $15,000, at least three quotations will be obtained. For
       items valuing $ 15,000 and more, international bid process will apply. Original purchase
       documents should be maintained at main office…”




                                                   46
                             HUDA DEVELOPMENT ORGANIZATION

                                Financial Audit of Costs Incurred under
                 Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                      and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


2013-7: Missing Documentation of Competitive Bid Process and Costs Appear Unreasonable
(Continued)

Furthermore, OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General
Principles, Part A, Basic Considerations, states, in part:

         “…2. Factors affecting allowability of costs. To be allowable under an award, costs
         must meet the following general criteria:

         a. Be reasonable for the performance of the award and be allocable thereto under these
         principles;…

         c. Be consistent with policies and procedures that apply uniformly to both federally-
         financed and other activities of the organization;…

         e. Be determined in accordance with generally accepted accounting principles
         (GAAP);…

         g. Be adequately documented....”


Effect:
Failure to competitively bid goods and/or services can result in the procurement of goods and/or
services that are at a price in excess of market. Total questioned personnel costs were $239,000,
consisting of $119,500 each under Awards S-AF200-10-GR-146 and S-AF200-10-GR-147.


Recommendation:
   (1) We recommend that HUDA either provide evidence to the State Department that the contract
       for the quality assurance/quality control firm was competitively bid, or return $239,000 to the
       State Department.

   (2)    We recommend that HUDA establish procedures to ensure it complies with the requirements
          of its Finance Manual and OMB Circulars A-110 and A-122 with respect to competitive
          bidding.




                                                  47
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-8: Audit Cost for Period Prior to the Award

HUDA charged the cost of an audit for the year ended December 31, 2009 to Award S-AF200-10-GR-
146. However, the period of performance of the Award began on July 15, 2010. As such these costs
are ineligible. The total cost of the audit was $1,500. Additionally, HUDA charged audit costs in the
amount of $3,000 for the years ended December 31, 2010 and 2011 to Award S-AF200-10-GR-146.
These audits were not for a Single Audit, which is allowable, and were not approved by the State. Thus
the cost has been questioned.


Cause:
The CFO was not familiar with the Federal Cost Principles for non-profit organizations. Additionally, lack
of management oversight resulted in the inclusion of costs applicable to periods prior to the Award.


Criteria:
Award S-AF200-10-GR-146, Award Specifics, Paragraph 3 states, in part:

       “…Project activities are scheduled to begin on or about July 15, 2010…”

Additionally, OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, Selected
Items of Cost, Paragraph 4, Audit Costs, states, in part:

       “…a) The costs of audits required by, and performed in accordance with, the Single
       Audit Act, as implemented by Circular A-133, "Audits of States, Local Governments, and
       Non-Profit Organizations” are allowable.

       b) Other audit costs are allowable if included in an indirect cost rate proposal, or if
       specifically approved by the awarding agency as a direct cost to an award…”


Effect:
Inclusion of ineligible audit costs for a period prior to the period of performance and failure to obtain
approval for other audit costs from the State Department signifies that HUDA does not have an
understanding of key cost principles and might not be competent to manage a federal award. This
resulted in ineligible costs of $1,500 and unsupported costs of $3,000 charged to Award S-AF200-10-
GR-146.


Recommendation:
   (1) We recommend that HUDA return $1,500 of ineligible audit costs to the State Department.




                                                   48
                          HUDA DEVELOPMENT ORGANIZATION

                              Financial Audit of Costs Incurred under
               Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                    and S-AF200-10-GR-245

                        For the Period July 15, 2010 to December 31, 2012


2013-8: Audit Cost for Period Prior to the Award (Continued)

   (2)   We recommend that HUDA either demonstrate to the State Department the allowability of
         audit costs incurred during the audit period or return $3,000 to the State Department.

   (3)   We recommend that HUDA demonstrate to the State Department that it has become familiar
         with key cost principles and is capable of managing an award.




                                               49
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-9: Lack of Adequate Internal Controls Surrounding Cash Disbursements

Condition:
The following weaknesses were noted in HUDA’s internal controls surrounding its cash disbursement
cycle:

•   Vouchers are not pre-numbered or indexed;

•   Hard copies of supporting payment vouchers were prepared after the expense entries were posted
    in the general ledger;

•   Inconsistency in the posting of payment vouchers as multiple payments for different invoices were
    lumped into one single general ledger posting entry and also multiple general ledger posting entries
    were lumped into one payment voucher;

•   Vouchers were not approved and/or authorized by the designated authorized personnel until after
    the payments were made; and

•   An audit trail was not documented as to the allocation of costs between the different awards.

This condition was also reported in the annual audit of HUDA for the years ended December 31, 2009,
2010 and 2011.


Cause:
HUDA management was unable to effectively enforce its cash disbursement policy to ensure that
employees were following the requirements of its Finance Manual when processing payments.


Criteria:
HUDA Finance Manual, Section 2, Financial System, states, in part:

       “…2.0 Accounting system should be according to the requirement of the donor, double
       entry system, in accordance with Internationally Accepted Accounting Practices…

       2.6 Vouchers should be numbered and signed…”


Effect:
Failure to exercise adequate management oversight of its cash disbursement policies increases the risk
that funds will be expended for unauthorized and unallowable transactions. This equates to an
increased risk in HUDA’s ability to properly manage a Federal award.




                                                   50
                            HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-9: Lack of Adequate Internal Controls Surrounding Cash Disbursements (Continued)

Recommendation:
We recommend that HUDA strengthen its controls surrounding its cash disbursements cycle to ensure
that its disbursements are only made for authorized, allowable transactions by implementing the
following, at a minimum:

   (1)   All vouchers should be pre-numbered;

   (2)   Supporting vouchers must be prepared and approved prior to releasing payment for goods
         and/or services;

   (3)   Consistency in the recording of transactions within its accounting records; and

   (4)   Adequate documentation exists to demonstrate to which awards costs are being charged.




                                                  51
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-10: Initiation of Work Before Signing of Memorandum of Understanding (MOU)

Condition:
During our testing of the Award S-AF200-10-GR-245, we noted that a subcontract was awarded by
HUDA to a vendor for the construction and procurement of media equipment for four universities
(Kandahar University, Nangarhar University, Balkh University and Khost University) for printing, radio
and TV studios with a total contract value of $3,224,045. Subsequent to award, the scope of the
project was reduced by removing Khost University. Due to delays in obtaining a signed MOU and
revision to the work plan (removing Khost University), the construction work could not be started as
scheduled and the project was terminated. Advance payments in the amount of $111,910 were made
for the descoped project. Additionally, costs in the amount of $162,345 for technical designing, soil
testing and mobilization for Khost University were incurred.


Cause:
Management indicates the condition occurred due to a long delay in signing the MOU. However,
HUDA failed to have adequate prudent control in place during planning and initiation of the awards in
order to avoid unnecessary initiation costs incurred.


Criteria:
OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General Principles,
Section A, Basic Considerations, Paragraph 4, Allocable Costs, states, in part:

       “…A cost is allocable to a Federal award if it…

       (1) Is incurred specifically for the award.

       (2) Benefits both the award and other work and can be distributed in reasonable
       proportion to the benefits received…”


Effect:
Unnecessary and unreasonable costs of $274,255 were incurred due to HUDA failure to properly
initiate a project. This amount has already been questioned as part of the questioned equipment costs
of $644,809 in Finding 2013-1.


Recommendation:
We recommend that HUDA establish procedures to exercise due care in planning and initiation of a
project to avoid and/or minimize unrecovered costs.




                                                     52
                            HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                         For the Period July 15, 2010 to December 31, 2012


2013-11: Missing Documents in Personnel Files

Condition:
During our testing of personnel files of the 20 employees of HUDA, we noted following:

   •   Education/experience certificates/documents were missing in the personnel files of 11 out of 20
       employees.

   •   Standard recruitment procedures were not followed for project staff. Several documents related
       to the recruitment were missing in the personnel files. Of the 20 employees tested, the following
       exceptions were noted:

                                                       No. of Personnel
                                                       Files with Missing
                       Missing Document                    Documents
           Job announcement                                    19
           Application letter                                  16
           CV                                                   8
           Education/experience certificates                   11
           Written test paper                                  19
           Short list form                                     20
           Interview panel's recommendations                   20
           Appointment letter                                  20
           Terms of Reference (ToR)                            14

   •   Documents related to the human resource management function were missing.             Of the 20
       employees tested, the following exceptions were noted:

                                                       No. of Personnel
                                                       Files with Missing
                    Missing Document                       Documents
           Performance evaluations                             18
           Promotions                                          18
           Warning letters                                     18
           Leave record                                        18

This condition was also reported in the annual audit of HUDA for the years ended December 31, 2009,
2010 and 2011.


Cause:
The condition occurred due to a lack of adequate management oversight over the human resource
function.



                                                  53
                            HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-11: Missing Documents in Personnel Files (Continued)

Criteria:
29 CFR Section 1602.14, Preservation of records made or kept, states, in part:

       “Any personnel or employment record made or kept by an employer (including but not
       necessarily limited to requests for reasonable accommodation, application forms
       submitted by applicants and other records having to do with hiring, promotion, demotion,
       transfer, lay-off or termination, rates of pay or other terms of compensation, and
       selection for training or apprenticeship) shall be preserved by the employer for a period
       of one year from the date of the making of the record or the personnel action involved,
       whichever occurs later…”

Additionally, OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment A, General
Principles, Part A, Basic Considerations, states, in part:

       “…2. Factors affecting allowability of costs. To be allowable under an award, costs
       must meet the following general criteria:

       a. Be reasonable for the performance of the award and be allocable thereto under these
       principles;…

       c. Be consistent with policies and procedures that apply uniformly to both federally-
       financed and other activities of the organization;…

       e. Be determined in accordance with generally accepted accounting principles
       (GAAP);…

       g. Be adequately documented....”

By applying these criteria, personnel records must be maintained as required by the EEOC, but
retained to fully support the costs claimed against Federal awards.


Effect:
Lack of effective control over the human resource function could result in the hiring of unqualified
employees who may not have the skill set necessary for which they are being funded by a Federal
agency. Additionally, failure to adequately maintain all personnel records can result in the concealment
of rational for a hiring decision, promotion, raise, etc.




                                                  54
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-11: Missing Documents in Personnel Files (Continued)

Recommendation:
We recommend that HUDA develop a comprehensive human resource management policy which
includes all of the standard internal control regulations for proper documentation of the staff recruitment
process and human resource management function to ensure transparency, efficiency and
accountability within the organization.




                                                    55
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


2013-12: Lack of Adherence to Employment Policies

Condition:
HUDA has a policy to deduct 10% of the salary of a newly-hired employee during their probationary
period. During our testing of employment practices, we noted that no salary had been withheld during
the probationary period for newly-hired employees.


Cause:
Management overlooked the requirements of its Finance Manual.


Criteria:
HUDA Finance Manual, Section 5, Salary Payment Cycle, states, in part:

        “…10% of the salary will be deducted during the three months’ probation period of the
       employees…”


Effect:
Failure to deduct 10% of a newly-hired employee’s salary during their probationary period resulted in
HUDA being noncompliant with its own policy.


Recommendation:
We recommend that HUDA review its policy on withholding salary form a probationary employee and
determine whether it is still an appropriate organizational practice. If it is determined to still be valid,
then HUDA should institute controls to enforce its policy.




                                                    56
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                           For the Period July 15, 2010 to December 31, 2012


2013-13: Excessive Cash Payments

Condition:
HUDA made payments in cash totaling $626,922 for all three Awards. This condition was also reported
in the annual audit of HUDA for the years ended December 31, 2009, 2010 and 2011.


Cause:
Management allowed the practice of payment for goods and/or services in cash.


Criteria:
OMB Circular A-110, Paragraph ___.21, Standards for financial management systems, states, in part:

       “…(3) Effective control over and accountability for all funds, property and other assets.
       Recipients shall adequately safeguard all such assets and assure they are used solely
       for authorized purposes…”

Additionally, OMB Circular A-113, Paragraph ___.300, Auditee responsibilities, states, in part:

       “…The auditee shall:…

       (b) Maintain internal control over Federal programs that provides reasonable assurance
       that the auditee is managing Federal awards in compliance with laws, regulations, and
       the provisions of contracts or grant agreements that could have a material effect on each
       of its Federal programs…”

Furthermore, OMB Circular A-133, Paragraph ___.105, Definitions, states in part:

       “...Internal control means a process, effected by an entity's management and other
       personnel, designed to provide reasonable assurance regarding the achievement of
       objectives in the following categories:

       (1) Effectiveness and efficiency of operations;

       (2) Reliability of financial reporting; and

       (3) Compliance with applicable laws and regulations…”


Effect:
Payments in cash could have enabled U.S. funding to support illegal activities and enemy combatants.




                                                     57
                           HUDA DEVELOPMENT ORGANIZATION

                              Financial Audit of Costs Incurred under
               Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                    and S-AF200-10-GR-245

                         For the Period July 15, 2010 to December 31, 2012


2013-13: Payments Made in Cash (Continued)

Recommendation:
We recommend that HUDA discontinue the practice of paying in cash. If it is absolutely necessary that
payment be made in cash, then HUDA needs to strengthen its internal controls to ensure adequate
documentation exists to support who received the payment and what the payment was for.




                                                 58
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-14: Lack of Segregation of Duties

Condition:
During our review of internal controls, we noted that the same individual was responsible for making
cash payments was recording the transactions in the accounting system. In addition, Project Manager
had the responsibility of hiring subcontractors, monitoring their work, submitting progress and financial
reports and approving all the payments. This condition was also reported in the annual audit of HUDA
for the years ended December 31, 2009, 2010 and 2011.


Cause:
Due to the budget constraints, HUDA had a limited number of staff and employees were required to
perform many functions.


Criteria:
The Committee of Sponsoring Organizations of the Treadway Commission (COSO), Internal Control –
Integrated Framework, Chapter 4, Control Activities, states, in part:

       “…Segregation of Duties – Duties are divided, or segregated, among different people to
       reduce the risk of error or inappropriate actions…”


Effect:
Lack of a proper segregation of duties results can result in the loss, misuse or misappropriation of funds.


Recommendation:
We recommend that HUDA review the functions performed by its employees to ensure that
incompatible functions are segregated, either through the introduction of a review process, or
reallocating incompatible duties to others.




                                                   59
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-15: Expenses in Excess of Budget

The reported costs for Awards S-AF200-10-GR-146 and S-AF200-10-GR-147 exceeded the budget for
various cost categories as follows. No transfer was made or funds requested from other cost
categories to offset the cost overruns.

                                                                                  Cost in Excess
                  Cost category                  Actual             Budget          of Budget
      S-AF200-10-GR-146:
        Personnel                            $ 380,621        $ 349,892              $30,729
        Equipment                              735,719          688,732               46,987
        Indirect costs                          65,647           62,000                3,647

      Total S-AF200-10-GR-146                 1,181,987            1,100,624          81,363

      S-AF200-10-GR-147:
        Personnel                               366,800              330,562          36,238
        Equipment                               735,263              688,732          46,531
        Construction work and supplies        1,583,286            1,547,214          36,072

      Total S-AF200-10-GR-147                 2,685,349            2,566,508         118,841

      Total all awards                       $3,867,336       $3,667,132            $200,204

The total costs for these two Awards exceeded the budget as follows. Since the State Department
allows for costs to be reallocated between cost categories so long as the aggregate amount of the
reallocations does not exceed $100,000 and 10% of the budget. The cost overruns above do not
exceed these thresholds. Therefore, the ineligible costs are limited to the actual costs in excess of the
total budget, per Award, as follows.

                                               S-AF200-10-GR-146               S-AF200-10-GR-147
      Total costs incurred                         $2,730,350                     $2,750,834
      Total budget                                  2,674,721                      2,634,494

        Costs incurred in excess of budget          $     55,629                  $ 116,340


Cause:
This condition occurred due to management’s inability to effectively monitor its budget, which resulted
in all of the media centers not being delivered as planned in the award.




                                                   60
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          For the Period July 15, 2010 to December 31, 2012


2013-15: Expenses in Excess of Budget (Continued)

Criteria:
The U.S. Department of State, Standard Terms and Conditions, Overseas Federal Assistance Awards,
Section 10, Prior Approval Requirements, states in part:

       “• Written prior approval, by way of amendment, from the Department of State’s GO is
       required for:…

           o   The transfer of funds among direct cost categories or programs, functions and
               activities for awards in which the Federal share of the project exceeds $100,000
               and the cumulative amount of such transfers exceeds or is expected to exceed
               10 percent of the total budget…”


Effect:
Failure to obtain approval prior to incurring costs in excess of the budget resulted in ineligible costs as
follows:

                                            Cost in Excess       Percent of       Allocation of
                 Cost category                of Budget         Total Award     Ineligible Costs
      S-AF200-10-GR-146:
        Personnel                              $ 30,729           37.77%           $ 21,011
        Equipment                                46,987           57.75%             32,126
        Indirect costs                            3,647            4.48%              2,492

      Total S-AF200-10-GR-146                     81,363         100.00%              55,629

      S-AF200-10-GR-147:
        Personnel                                 36,238          30.49%              35,472
        Equipment                                 46,531          39.16%              45,559
        Construction work and supplies            36,072          30.35%              35,309

      Total S-AF200-10-GR-147                   118,841          100.00%             116,340

      Total all awards                         $200,204                            $171,969


Recommendation:
   (1) We recommend that HUDA return $171,969, consisting of $55,629 for Award S-AF200-10-
       GR-146 and $116,340 for Award S-AF200-10-GR-147, to the State Department for costs
       incurred in excess of approved budget.




                                                    61
                          HUDA DEVELOPMENT ORGANIZATION

                              Financial Audit of Costs Incurred under
               Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                    and S-AF200-10-GR-245

                        For the Period July 15, 2010 to December 31, 2012


2013-15: Expenses in Excess of Budget (Continued)

   (2)   We recommend that HUDA implement procedures to monitor the budget to ensure costs are
         not incurred and claimed which are in excess of budgeted amounts.




                                               62
                                                                                         APPENDIX A
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                                     HUDA Response to Findings

                          For the Period July 15, 2010 to December 31, 2012


Included on the following pages is HUDA’s response received to the findings identified in this report. In
addition to the narrative response, HUDA provided documentation that, in its opinion, supports its
position on various findings. Due to the voluminous and proprietary nature of this documentation, it has
not been included within this report. The documentation has been provided to SIGAR under separate
cover.




                                                   63
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬

            Financial Audit of Costs Incurred Under
   Federal Assistance Awards SAF-200-10-GR146, SAF-200-10-
                  GR147 and SAF-200-10-GR245

            For the Period July 15, 2010 to December 31, 2012
                             HUDA Management Note
2013-1: Lack of Competitive Bidding Process
HUDA Management Response

1a) Vouchers are now numbered and indexed, with relevant supporting
documents

1b) The Program Manager is the single authorized focus point to approve
payment. Approval by Program Manager and disbursements has to correspond
to chart of accounts, and is enforced by Grand and Finance Manager

1c). HUDA Developed a chart of accounts corresponding to approved budget
categories and line items itemized in detailed cost breakdown submitted to and
approved by US Embassy Kabul in the post specific details awards

Will revise the control system and acknowledge the comment regarding budget
categories. The control system being applied is based on budget categories; that
is the Program Manager approves expenditure items in line with classified
budget categories. A single voucher in some instance covers various
expenditure items under a budget category for example construction.

Payment request made recommend standard control procedures to be followed
All vouchers have been authorized and duly approved by Project Manager

Acknowledge need to make vouchers then put in GL

Acknowledged that supporting documents need to be attached with voucher, not
just evidences of payments neither having them in separate folders

The vouchers presented were draft vouchers and proper coordination and
alignment with supporting documents are usually made at the end of quarter
period, however due to the time setting audit the coordination was incomplete.
However the alignment has been made.

                                                                                                      1
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   64
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬
All the vouchers and all financial supporting documents are now resident in the
Finance office, however accessible supporting documents were not scattered;
some were in Project Manager's office and were filed and prepared for transfer
to Finance Office
As explained in the HUDA Management Note-02-2013 submitted to the Audit
Team with folders of relevant documentation of competitive bidding; thorough
competitive bidding process was adopted and the documentations relating to the
bids were duly presented to the field audit team, and thoroughly explained by
the Program Manager.

There are four major components of the AUMOC Project Viz:

       Construction
       Media Equipment Supply and Installation
       Design Services
       Soil Testing and Geotechnical Investigations

These components were competitively bided for and bids and quotations
analyzed by the Program Manager assisted by the Grant and Finance Manager
and Independent International QA/ QC Consultants which were hired by HUDA
and endorsed by the ruling assigned Grant Officer in charge at US Embassy
Kabul who reviewed their profiles and QA/ QC Policies.

The only sub-component which was sole-source was in respect of “Seismic
Analysis”, where there was only one company within Afghanistan who could
conduct the analysis for the Media Operations Center Buildings.

With regards to Construction Cost, a detailed market price survey was also
conducted by the PAS- US Embassy in Kabul to verify the cost breakdown on
itemized basis that was presented by HUDA for the grants.

Please find attached “extracts” of e-mail communications referring to the
verification and validation of HUDA Construction Cost Budget

The itemized costs for which auditors are claiming no competitive bidding are
partial costs of a “turnkey cost” of construction based on contract amount; they
are not single items of supply; they were partial payments based on construction
works done as part of an agreed milestone of the construction contract
agreement.

                                                                                                      2
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   65
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬
The construction contract agreements were not based on individualized item
transactions, rather on a total sum covering major construction areas and works;
thus the requested claim for competitive bid process for individualized
transactions was not applicable.

The title “Construction Work and Supplies” as budget category was actually
“Construction Contractual” work, and as earlier mentioned was on a total
contract overall amount covering overall construction work areas.

With regards to S-AF200-10-GR245; HUDA’s proposal and cost was selected
from a competitive bid process implemented by the US Embassy in Kabul,
which was internationally advertised; HUDA submitted detailed proposal with
other companies and was duly awarded the grant based on technically
acceptable best value.

Both the Construction Cost breakdown and Detailed Equipment List and Cost
breakdown were part of the supporting documents submitted to the US Embassy
in Kabul, which formed the basis for categorization of sum of budget line items
and grant approval

Media Equipment- A detailed competitive bidding process was implemented by
HUDA including site visits to vendors and vendors’ similar projects, which was
then followed up with an assessment based on quantitative and qualitative rating
to select the best value, technically competent vendor. The assessment report
was submitted to the “ruling” grant officer before final contract for equipment
vendor selection. The assessment report titled “AUMOC-Media Equipment
Final Report- Jan 15, 2011 was submitted to the Audit Team.

The amount of $644,809 referred to was 20% deposit on the contract value of
$3,224,045 for 4 Universities Media Studio Equipment Packages supported by
detailed item in each of the media equipment package based on the quotations
submitted in the proposal to the US Embassy and approved as detailed in the
post-award specifics for GR245.

Relevant documentation including copy of proposal was presented and provided
to the Audit Team.




                                                                                                      3
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   66
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬
Standard Competitive processes were duly followed based on solicitations from
identified and pre-qualified vendors both through submitted bids or quotations.
Copies of the processes were given to the Auditors and copies of these were
shown at meeting which was held on April 1, 2013, where the process for
selecting the materials and subcontractors was outlined for each relevant
component as required.

All reports of services contracted Design/ Soil Testing/ Surveys and QA/ QC
and construction reports were provided to Auditors, though they were not
attached to payment vouchers; however they were referenced as appropriate.

2013-2: Supporting Documentation Not Provided
HUDA Management Response

All invoices and supporting documents referred to have been located and
reconciled accordingly and the costs are in accordance with costs allowable for
the grants for discrete transactions relevant to project performance.

2013-3: Suspicious Payments to Unidentified Individuals
HUDA Management Response

There were no suspicious payments to unidentified individuals; the individuals
referred to were due representative vendors.

Quantity of labor based on Independent QA/ QC assessment of extra shift labor
needed, and an individual labor construction supplier was utilized to provide
daily workers, with daily labor attendance maintained.

The “Individual Labor Supplier” works as an Independent Construction Labor
Supplier; he does not run a company, he recruits and supplies construction labor
workers for various projects across provinces as required.

HUDA has worked with this individual in past construction grant related
projects funded by US Embassy awarded to HUDA (Computer Lab Renovation
Works; Cultural Center Renovation Assessment Workers etc) and he has proven
reliable performance, thus there was no bid process in this regard. However
proper documentation on quantity and labor rates for the labor categories
supplied were supervised and verified by QA/ QC and he was paid accordingly
in cash. The labor schedule and payment to contractor with evidence of receipt
of cash was duly provided to the Audit Team.
                                                                                                      4
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   67
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬
Management has proper financial oversight by verifying and ensuring the
identities of authorized vendors; only authorized vendors were paid directly
either by cash or check as requested by vendor, otherwise a signed note is
requested from authorized vendor and is followed up by telephone confirmation
from Grant and Finance Manager to authorized vendor to confirm the
representing individual before payment is made.

2013-4: Cost Claimed to the Awards not Recorded in Underlying
Accounting Records
HUDA Management Response

There were no unauthorized expenses billed to the grant; the Audit Team had
selected payments at random from the accounting records, and in some
instances they were partial payments, with follow-up completion payments
made and recorded accordingly.

The stated expenses have been reconciled with relevant supporting documents
and are allowable costs to the performance of the grant within approved US
Embassy budget categories.

2013-5: Lack of Adequate Record Retention in Procurement Cycle
HUDA Management Response

All costs incurred under the respective categories were duly approved by the US
Embassy Grant Officer and were thus considered reasonable for the
performance of the awards.

The US Embassy Grant Officer through their own various cost surveys and
analysis verified and ascertained the reasonableness of all costs incurred as
relevant and of best-value.

Attached extracts of e-mail correspondence from US Embassy Grant Officer to
HUDA Program Manager on Cost Analysis

HUDA has the relevant documentation supporting necessary construction costs
and indirect costs and provided supporting documents based on list of verifiable
expenditures that Audit Team requested. The challenge with the Audit Team
was lack of cooperation and understanding and impatience based on their claims
of limited time to allow HUDA to coordinate retained documentation
supporting costs.
                                                                                                      5
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   68
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬
2013-6-: Salaries Paid in Cash and Missing Supervisory Approval for
Timesheets
HUDA Management Response

HUDA has maintained records of all projects staff salary payments throughout
the project cycle period.

The Human Resources Officer prepares monthly salary sheets based on
employee daily attendance sheets; all monthly salary sheets for each employee
is verified and attested by Grant and Finance Manager, and duly approved by
Program Manager.

All HUDA staff on the grants have been employed since the commencement of
the projects and have demonstrated competencies relevant to the performance of
the grants; despite economic index increases in Afghanistan during the project
life cycle period, there have been no increases in staff salaries granted, the staff
costs are allowable and under-rated compared to similar USG funded projects
national staff costs.

All staff costs and indirect costs are based on approved US Embassy budget cost
categories as highlighted in post-award specifics.


2013-7: Missing Documentation of Competitive Bid Process and Costs
Appear Unreasonable
HUDA Management Response

HUDA proposed the use of third party Quality Assurance/ Quality Control (QA/
QC services to the Embassy to ensure achievement of international building
standards for the construction works.

The profile of the QA/ QC firm with qualifications of the QA/ QC, justification
for QA/ QC costs and detailed QA/ QC policies were submitted to the
Embassy’s Grant Officer and were duly reviewed and approved with
corresponding amendments; these documents (QA/ QC Profile/ CVs) were
submitted to the AUDIT Team for review.




                                                                                                      6
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   69
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬
The QA/ QC services covered both pre-construction period which included
review of designs (architectural, structural, mechanical and electrical) and the
geotechnical and soil testing reports, these pre-construction periods was from
October 2010 through January, 2011.

HUDA Management did not indicate that competitive bid process was not
required; the explanation provided was that since this was a “specialist
technical” area, and due to time limitations, HUDA sourced locally through the
Afghan Builders Association (ABA) to locate a competent firm in-country with
US/ IBC Construction Standards expertise and experience, and there was only
one firm referred.

As earlier expressed, the firm with the qualifications of the consultants, costs
and policies were duly presented to the US Embassy Grant Officer who sought
the assistance of USAID Vertical Structures subject-matter experts in
Afghanistan for their review accordingly; and satisfactory approval was
received upon which an amendment to the awards was made and the QA/ QC
budget was approved and granted to HUDA.

Thus to the maximum extent practical and with due submission and review and
consequent approval by the US Embassy Grant Officer, the QA/ QC firm and
costs were approved and expenditures incurred accordingly and documented.

The US Embassy Grant Officer upon their decision of approval for independent
QA/ QC Consultants for the grants effected an amendment to the grants for
recruitment and inclusion of Independent QA/ QC Consultants in the project
with relevant costs allowable approved.

All QA/ QC documentation – contract; consultants CVs and policies were
submitted to the Audit Team and also represented at the April 1, 2013 meeting
with Audit Team Leader and Audit Firm Director.




                                                                                                      7
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   70
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬
2013-8: Audit Cost for Period Prior to the Award
HUDA Management Response

The Federal Assistance Award agreement signed for the three grants specified
that the awards are “Not Subject to Circulars including OMB Circular A-122;
the Auditor’s unawareness of the details of the awards which were submitted
and presented to them showed the lack of understanding of the applicable rules
governing the awards. This demonstrates our claim that the Audit Team failed
to cooperate with HUDA Management by giving due attention to the details of
award documentation and supporting documents provided and context
governing “Award Specifics”; “Post Specific Requirements” and “Standard
Overseas Terms and Conditions”; rather a general approach to auditing was
being applied. Thus the Audit Team is unfamiliar of applicable rules and
standards governing the grant awards and lacks management oversight as
indicated and referenced in all their findings to identify the applicable rules as
stated by the State Department.

HUDA Management is well capable of management an award as the
organization has proven records of its performance. The audit was conducted in
April, 2012 covering the years 2009, 2010, and 2011, it was done based on an
indication comment during a visit to HUDA Management Team in 2011 by two
SIGAR representatives in which an interview was held with HUDA Program
Manager and Grant and Finance Manager. The audit was not conducted before
the period of performance of the award, and the costs were charged to “Indirect
Cost” category.

2013-9: Lack of Adequate Internal Controls Surrounding Cash
Disbursements
HUDA Management Response

All vouchers have been duly numbered and indexed accordingly. Every voucher
has an accounting and a cost center code which corresponds to the budget
category and the relevant grant award being charged.

Supporting documents were reviewed and on basis of allowable approved
budget costs were consequently approved by Program Manager and entries were
posted. Due to time, some supporting documents were not aligned and attached
to the vouchers, and some vouchers were not signed due to project travel
schedule of the Program Manager, however all vouchers raised were based on
allowable and approved costs as per approved budget by the US. Embassy
                                                                                                      8
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   71
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬
All identified expenditures by the Audit Team were fully supported with
relevant supporting documents.

Allocation of costs were clearly separated for each award and indicated on the
vouchers.

Excluding salaries to project staff; cash disbursements to vendors was less than
10% of total expenditure disbursements.

The accounting system is properly set up according to the donor requirements
based on approved budget line items per each award.

HUDA submitted quarterly financial statements with monthly breakdown of
expenditures to the US Embassy Grant Officer, and the reports were properly
reviewed to guard against unallowable transactions and expenditures to
unauthorized persons or organizations

HUDA’s ability to properly manage a Federal Award has been adequately
proven by demonstrating due diligence and financial responsibility through
consistent financial reporting to the US Embassy and aligned within allowable
costs for the goods and services delivered which have met high performance
achievements. Thus the risks of disbursements for unauthorized and
unallowable transactions have been nonexistent during the project life cycle.


2013-10: Initiation of Work before Signing of Memorandum of
Understanding (MOU)
HUDA Management Response

HUDA was not responsible to obtain a signed MOU between Afghan
Government Ministry of Higher Education and the United States Embassy,
Kabul. It was the full responsibility of US Embassy, Kabul-PAS and thus
HUDA did not fail in a responsibility that was not the organization’s.

As to the initiation of works related to the project award, proper approval was
sought and given by the Grant Officer after the signing of the Federal
Assistance Award Agreement with attached Award Specifics, and signing of
“MOU”



                                                                                                      9
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   72
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬
The Federal Assistance Award Agreement which included approved and
allowable budget item costs and categories were based on proposals submitted
to the US Embassy, Kabul Grant Officer which included submitted vendor costs
for works, goods, and services.

The commitments for works and supply were secured with proposal submission
which was made on July 28, 2010; HUDA was selected from a competitive bid
process conducted by the US Embassy in Kabul and the Federal Assistance
Award Agreement was signed on September 30, 2010.

The version 1 of the “MOU” was signed between Afghan Government Ministry
of Higher Education and US Embassy on March 30, 2011; while final version
was signed on June 30, 2011; NO WORKS OR EQUIPMENT PROCUREMENT was
made prior to signing of ‘MOU”. The timeline of initiation of project works
under the grant awards is as follows:

      Pre-construction works Site Allocation by the Four Universities
       Chancellors – July 1, 2011- August 6, 2011.
      Geotechnical Investigation and Soil Testing of the Four Universities was
       as follow
       No University Site                   GI/ ST Period of Work
       1    Kandahar University             July 5, 2011 to July 20, 2011
       2    Nangarhar University            July 21, 2011 to July 26, 2011
       3    Khost University                August 3, 2011 to August 12, 2011
       4    Balkh University                August 18, 2011 to August 26, 2011

     Independent Review of Four Universities – October 16, 2011
     Preliminary Design of Four Universities – December, 2011
     Topographic Site Surveys of Four Universities – Jan, 2012
     Site Preparation, Mobilization and Construction of 3 University Project
      Management Offices (PMO) – Feb- April, 2012.
     Removal of Khost University from Award Agreement – May , 2012
     Media Equipment: (First Studio Package Offer) – September, 2011
                         (Second Studio Package Offer) – October, 2011
                         (Final Order Agreement) – December 7, 2011

As highlighted above and duly presented to the Audit Team with relevant
documentation and cost supporting documents, no goods or services were
procured or contracted or initiated prior to signing of MOU.

                                                                                                      11
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   73
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬
All costs incurred were specifically for relevant components toward
performance of award and were initiated after due directive by the US Embassy
Grant Officer to proceed. In addition copies of reports and contracts of all
initiated works and goods referenced above were submitted to the US Embassy,
Kabul as part of HUDA reporting responsibilities and copies submitted and
explained to the Audit Team. Thus no unnecessary and unreasonable costs were
incurred by HUDA and all project activities were properly initiated with
awareness, consultation and approval of US Embassy, Kabul Grant Officer.


2013-11: Missing Documents in Personnel Files
HUDA Management Response

All personnel documents to the best of our knowledge have the CVs; contracts,
and relevant educational/ experience information.

The Management notes and recommendations of annual audit referred to for the
years 2009, 2010 and 2011 were never presented and submitted to HUDA by
HLB Audit team that conducted the audit after the completion of assignment.

All HUDA staffs were properly hired and are qualified and have demonstrated
proven performance through the project life cycle resulting in the quality of
project component deliverables to date.

2013-12: List of Adherence to Employment Policies
HUDA Management Response

The finance manual has been revised accordingly, and the withholding salary
policy removed.

2013-13: Excessive Cash Payments
HUDA Management Response

All payments made in cash were properly documented and were made to
selected and contracted vendors for relevant and approved goods and services
for the performance of the three awards.

Payments in cash are far less than 10% of total amount of expenditures made in
all the three awards.

                                                                                                      11
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   74
                                                                                          APPENDIX A

             HUDA Development Organization (HUDA)
                                 ‫موسسه انکشافی هدا‬
In all its activities in the three awards, HUDA Management and personnel have
demonstrated competencies resulting to highly satisfactory performance of the
implement of the projects and the achievement of relevant objectives.


2013-14: Lack of Segregation of Duties
HUDA Management Response

HUDA has appropriate division of labor and duties for all personnel in all the
three awards; as a Non-Governmental Organization (NGO), we have maintained
a cost-effective and best-value approach in utilizing professional personnel with
broad experience and multi-task capabilities. Our approach has given us a
unique edge in delivering high-impact donor-sponsored projects at reasonable
management and administrative costs without compromising quality.

HUDA Management and staff have never been found to perform below
satisfactory achievements in their functions in all three awards.


2013-15: Expenses in Excess of Budget
HUDA Management Response

HUDA Management effectively monitored the budget, the awards due to
experience delays including weather and security challenges were caught up in
economic price increases which affected the construction costs in Kabul, and
costs of shipping of media equipment for the two awards which increased due to
increased risks of goods airfreighted to Afghanistan; the Japan disaster and
security charges for movement of goods in-land in Afghanistan.

The increase in personnel costs were due to extended completion periods. Also
there were other extended construction works requested by the University
(beneficiary) which was approved by the US Embassy Grant Officer.




                                                                                                      12
St No 6 Kart-e-seh Pule-e-Surkh, Kabul, Afghanistan — 0093- (0) 786 514243 — tayofagbenro@gmail.com



                                                   75
                                                                                       APPENDIX B
                            HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                          Auditor’s Rebuttal to HUDA Response to Findings

                         For the Period July 15, 2010 to December 31, 2012


HUDA disagreed with 12 of the 15 findings presented in this report. We have reviewed its management
response and offer the following rebuttal for each finding to which HUDA disagreed.


2013-1: Lack of Competitive Bidding Process

Evidence of the competitive procurement process was not provided to us during the fieldwork portion of
the audit. Our recommendation remains unchanged.


2013-3: Suspicious Payments to Unidentified Individuals

HUDA did not clarify why the signature on the Acknowledgement of Receipt was different from other
documentation. In addition, HUDA did not explain why payment of the check to the vendor was signed,
approved and cashed by the HUDA Project Manager instead of the vendor. Our recommendation
remains unchanged.


2013-4: Cost Claimed to the Awards not Recorded in Underlying Accounting Records

HUDA did not clarify nor provide documentation to support that the questioned transactions were
recorded in the underlying accounting records. Our recommendation remains unchanged.


2013-5: Lack of Adequate Record Retention in the Procurement Cycle

The missing documentation was not provided prior to the completion of audit fieldwork. Additionally,
approval from the U.S. Embassy for reasonableness of cost is not sufficient support to determine the
allowability of costs incurred. Our recommendation remains unchanged.


2013-6: Salaries Paid in Cash and Missing Supervisory Approval for Timesheets

The timesheets did not contain a supervisor’s approval evidencing the hours reported were chargeable
to the awards. Our recommendation remains unchanged.


2013-7: Missing Documentation of Competitive Bid Process and Costs Appear Unreasonable

Adequate documentation was not provided to support the award of a contract as a sole source
procurement. Our recommendation remains unchanged.



                                                 76
                                                                                          APPENDIX B
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                           Auditor’s Rebuttal to HUDA Response to Findings

                                              (Continued)


2013-8: Audit Cost for Period Prior to the Award

The audit costs were deemed ineligible as they related to a period prior to the beginning of the period of
performance. In addition, the awards are subjected to the US Department of State’s Standard
Overseas Terms and Conditions which clearly stated under Section 2, Order of Precedence:

       “In the event of any inconsistency between provisions of the award, the inconsistency
       shall be resolved by giving precedence in the following order:
           • Applicable laws and statutes of the United States, including any specific
               legislative provisions mandated in the statutory authority for the award.
           • Standard Terms and Conditions
           • Bureau/Post Award Specific Terms and Conditions
           • Other documents and attachments”

OMB Circular A-122 is a Federal regulation applicable to non-profit organizations which supersedes all
other applicable requirements. Our recommendation remains unchanged.


2013-9: Lack of Adequate Internal Controls Surrounding Cash Disbursements

HUDA states in its response that its internal controls were adequate throughout the audit period. The
evidence reviewed in support of the costs tested clearly demonstrates a lack of adequate controls
surrounding cash disbursement. Our recommendation remains unchanged.


2013-10: Initiation of Work Before Signing of Memorandum of Understanding (MOU)

HUDA is correct in its response that the costs for technical design, soil testing and mobilization for
Khost University were not incurred prior to the signing of the MOU. The condition of the finding has
been revised to clarify this fact. However, given the scope of the project was reduced to remove Khost
University, all costs associated with this University cannot be charged to the award.             Our
recommendation remains unchanged.


2013-11: Missing Documents in Personnel Files

The missing documents were not provided for review prior to completion of the fieldwork portion of the
audit. Our recommendation remains unchanged.




                                                   77
                                                                                         APPENDIX B
                             HUDA DEVELOPMENT ORGANIZATION

                               Financial Audit of Costs Incurred under
                Federal Assistance Awards S-AF200-10-GR-146, S-AF200-10-GR-147
                                     and S-AF200-10-GR-245

                           Auditor’s Rebuttal to HUDA Response to Findings

                                              (Continued)


2013-13: Excessive Cash Payments

HUDA states that cash payments represent less than 10% of the total costs incurred and that its
controls surrounding cash payments were adequate. However, no documentation was provided to
support that the internal controls surrounding cash payments safeguard assets and ensure that
payments are only made to authorized individuals and/or vendors. Furthermore, this finding was also
identified in HUDA’s audits for the years ended December 31, 2009, 2010 and 2011. Our
recommendation remains unchanged.


2013-14: Lack of Segregation of Duties

HUDA indicates in its response that it has adequate segregation of duties. However, no evidence was
provided with the response to indicate that the incompatible functions identified in the finding were not
performed by the same individual, or that adequate compensating controls existed.                    Our
recommendation remains unchanged.




                                                   78
                                                                                             APPENDIX C


                            HUDA DEVELOPMENT ORGANIZATION
                              Financial Audit of Costs Incurred under
                           Federal Assistance Award SAF-200-10-GR 146

                              Individual Grant Accountability Statement

                       For the period July 15, 2010 through December 31, 2012




                                                                                 Questioned Costs
                                             Budget          Actual          Ineligible   Unsupported
Revenues:
   SAF-200-10-GR 146                     $ 2,674,721     $ 2,674,577     $         -     $         -

Total revenues                               2,674,721       2,674,577             -               -

Costs incurred:
   Personnel                                   349,892         380,621          21,011         137,765
   Travel                                       19,126          19,126             -               -
   Equipment                                   688,732         735,719          32,126             -
   Construction work and supplies            1,554,971       1,529,237             -           624,019
   Indirect costs                               62,000          65,647           3,992          21,169

Total costs incurred                         2,674,721       2,730,350          57,129         782,953

Outstanding fund balance (deficit)       $         -     $     (55,773) $      (57,129) $     (782,953)




                                                 79
                                                                                           APPENDIX C


                            HUDA DEVELOPMENT ORGANIZATION
                              Financial Audit of Costs Incurred under
                           Federal Assistance Award SAF-200-10-GR 147

                              Individual Grant Accountability Statement

                       For the period July 15, 2010 through December 31, 2012




                                                                               Questioned Costs
                                             Budget        Actual          Ineligible   Unsupported
Revenues:
   SAF-200-10-GR 147                     $ 2,634,494     $ 2,634,494   $         -     $         -

Total revenues                               2,634,494    2,634,494              -               -

Costs incurred:
   Personnel                                   330,562      366,800           35,472         137,740
   Travel                                        5,986        5,986              -               -
   Equipment                                   688,732      735,263           45,559           4,000
   Construction work and supplies            1,547,214    1,583,286           35,309          87,099
   Indirect costs                               62,000       59,499              -             6,642

Total costs incurred                         2,634,494    2,750,834          116,340         235,481

Outstanding fund balance (deficit)       $         -     $ (116,340) $      (116,340) $     (235,481)




                                                 80
                                                                                            APPENDIX C


                            HUDA DEVELOPMENT ORGANIZATION
                              Financial Audit of Costs Incurred under
                           Federal Assistance Award SAF-200-10-GR 245

                              Individual Grant Accountability Statement

                       For the period July 15, 2010 through December 31, 2012




                                                                                 Questioned Costs
                                             Budget          Actual          Ineligible   Unsupported
Revenues:
   SAF-200-10-GR 245                     $ 8,374,239     $ 2,093,560     $         -    $         -

Total revenues                               8,374,239       2,093,560             -              -

Costs incurred:
   Personnel                                   342,500        241,950              -           41,950
   Travel                                       30,000         24,633              -            5,747
   Equipment                                 3,224,045        644,809              -          644,809
   Construction work and supplies            4,290,114        546,070              -          475,678
   Other direct costs                          431,424          7,947              -              -
   Indirect costs                               56,156        167,854              -           45,015

Total costs incurred                         8,374,239       1,633,263             -        1,213,199

Outstanding fund balance (deficit)       $         -     $    460,297    $         -    $ (1,213,199)




                                                  81
                               The mission of the Special Inspector General for Afghanistan
           SIGAR’s Mission     Reconstruction (SIGAR) is to enhance oversight of programs for the
                               reconstruction of Afghanistan by conducting independent and
                               objective audits, inspections, and investigations on the use of
                               taxpayer dollars and related funds. SIGAR works to provide accurate
                               and balanced information, evaluations, analysis, and
                               recommendations to help the U.S. Congress, U.S. agencies, and
                               other decision-makers to make informed oversight, policy, and
                               funding decisions to:
                                        •   improve effectiveness of the overall reconstruction
                                            strategy and its component programs;
                                        •   improve management and accountability over funds
                                            administered by U.S. and Afghan agencies and their
                                            contractors;
                                        •   improve contracting and contract management
                                            processes;
                                        •   prevent fraud, waste, and abuse; and
                                        •   advance U.S. interests in reconstructing Afghanistan.


  Obtaining Copies of SIGAR    To obtain copies of SIGAR documents at no cost, go to SIGAR’s Web
   Reports and Testimonies     site (www.sigar.mil). SIGAR posts all publically released reports,
                               testimonies, and correspondence on its Web site.




To Report Fraud, Waste, and    To help prevent fraud, waste, and abuse by reporting allegations of
                               fraud, waste, abuse, mismanagement, and reprisal, contact SIGAR’s
      Abuse in Afghanistan     hotline:
   Reconstruction Programs
                                        •   Web: www.sigar.mil/fraud
                                        •   Email: sigar.pentagon.inv.mbx.hotline@mail.mil
                                        •   Phone Afghanistan: +93 (0) 700-10-7300
                                        •   Phone DSN Afghanistan: 318-237-3912 ext. 7303
                                        •   Phone International: +1-866-329-8893
                                        •   Phone DSN International: 312-664-0378
                                        •   U.S. fax: +1-703-601-4065




                               Public Affairs Officer
              Public Affairs
                                        •   Phone: 703-545-5974
                                        •   Email: sigar.pentagon.ccr.mbx.public-affairs@mail.mil
                                        •   Mail: SIGAR Public Affairs
                                            2530 Crystal Drive
                                            Arlington, VA 22202
